No. _ _ __

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

ALTON ALEXANDER NOLEN
Petitioner,

v.
THE STATE OF OKLAHOMA
Respondent.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

JAMES H. LOCKARD
Oklahoma Bar No. 18099

Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070
Telephone (405) 801-2666
Telefacsimile (405) 801-2690
ATTORNEYS FOR PETITIONER

August 16, 2021

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Alton Alexander Nolen, an indigent inmate of the Oklahoma State Penitentiary,
submits this Motion for Leave to Proceed In Forma Pauperis with his Petition for Writ of Certiorari
to the Oklahoma Court of Criminal Appeals.
The Oklahoma Indigent Defense System was appointed by the Cleveland County District
Court to represent Petitioner on direct appeal. Pursuant to Rule 39(1) of this Court's rules, a copy
of the order finding Petitioner indigent and appointing counsel is attached to this motion.
It is respectfully requested that this Court grant this Motion for Leave to Proceed In Forma
Pauperis, and permit Alton Alexander Nolen, to submit his petition for writ of certiorari for filing
without prepayment of filing fees or costs.
Respectfully,

~~-

hJeSli

Lockard
Oklahoma Bar Assoc. No. #18099
Oklahoma Indigent Defense System
Homicide Direct Appeals Division
P.O. Box 926
Norman, OK 73070
(405) 801-2666
(405) 801-2690 (telefascsimile)
ATTORNEY FOR PETITIONER

•
IN THE DISTRICT COURT OF CLEVELAND COUNTY
STATE OF OKLAHOMA

STATE OF O~HOM.A;}
CLEVELAND ~~UNTY S.S.

STATE OF OKLAHOMA,

FIL)EO

Plaintiff,

DEC

vs.

l~2017

Case No. CF-2014-1792LW

)
In lhe offic~ of the
Court Clerk MARl~YN WILLIAMS

ALTON ALEXANDER NOLEN,

Defendant.

)
ORDER

NOW on this 15111 day of December, 2017, this matter comes on for formal sentencing
proceedings. Defendant appears, in person and with counsel Mitchell Solomon, Shea Smith and
Ben Brown, and the State appears by and through District Attorney Oreg Mashburn and Assistant
Distrtict Attorneys Susan caswell and John Pevehouse. Pursuant to the record. this Defendant is
adjudged and sentenced on each count according to the judgment and sentences to be filed this
date.
The Defendant is advised of the appellate process and is hereby remanded to the care and
cust.ody of the Cleveland County Detention Center to await transportation to the Department of
Corrections.
The Appellate Division of the Oklahoma Indigent Defense System is hereby appointed
for the appeal as required under both State and federal law. OIDS is hereby required to submit
the appropriate orders of appointment to this Court.

..
All exhibits introduced at the trial ofthis matter are withdrawn by the respective
sponsoring party. The parties are hereby ordered to produce to the court reporter an original and
three copies of each exhibit for appeal purposes within sixty (60) days as required by statute.
IT JS SO ORDERED this 15111 day of December, 2017.

2

No.- - - - -

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

ALTON ALEXANDER NOLEN

Petitioner,

v.
THE STATE OF OKLAHOMA
Respondent.

PETITION FOR WRIT OF CERTIORARI
TO THE OKLAHOMA COURT OF CRIMINAL APPEALS

JAMES H. LOCKARD
Oklahoma Bar No. 18099
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070
Telephone (405) 801-2666
Telefacsimile (405) 801-2690
ATTORNEY FOR PETITIONER

August 16, 2021

CAPITAL CASE

QUESTION PRESENTED FOR REVIEW
Whether Oklahoma's procedure for litigating the issue ofwhether a capital defendant
suffers from an intellectual disability that would disqualify him from being sentenced
to death comports with this Court's decision that persons who are "mentally
retarded," or "intellectually disabled," under the more contemporary nomenclature,
are not eligible for the death penalty under the Eighth Amendment to the United
States Constitution.

TABLE OF CONTENTS
PAGE
QUESTION PRESENTED FOR REVIEW .......................................

1

TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES .................................................. iii
LIST OF PARTIES ........................................................... 1
OPINION BELOW ........................................................... 1
JURISDICTIONAL STATEMENT .............................................. 1
UNITED ST ATES CONSTITUTIONAL PROVISIONS INVOLVED ................. 2
OKLAHOMA CONSTITUTIONAL PROVISIONS INVOLVED ..................... 3
ST ATUTORY PROVISIONS INVOLVED ....................................... 4
STATEMENT OF THE CASE .................................................. 8
REASONS FOR GRANTING THE WRIT AND SUMMARY OF ARGUMENT ....... 14
CONCLUSION ............................................................. 23
APPENDIX
Opinion of the Oklahoma Court of Criminal Appeals ......................... Exhibit "A"

u

TABLE OF AUTHORITIES
CASES
Atkins v. Virginia,
536 U.S. 304 (2002) ..................................................... 14
Blonner v. State,
2006 OK CR 1, 127 P.3d 1135 ............................................ 16
Commonwealth v. Crawley,
924 A.2d 612 (Pa. 2007) ................................................. 18
Hammon v. State,
2004 OK CR 13, 88 P.3d 891 .......................................... 14, 15
Hooks v. State,
2005 OK CR 23, 126 P.3d 636 ............................................ 16
Howell v. State,
2006 OK CR 28, 138 P.3d 549 ...................................... 13, 16, 18
Jackson v. Virginia,
443 U.S. 307 (1979) ..................................................... 18
Lambert v. State,
2005 OK CR 26, 126 P.3d 646 ........................................ Passim
Murphy v. State,
2002 OK CR 32, 54 P.3d 556 (Murphy I) .................................... 15
Myers v. State,
2005 OK CR 22 ........................................................ 16
Nixon v. State,
2 So.3d 13 7 (Fla. 2009) .................................................. 18
Nolen v. State,
2021 OK CR 5, 485 P .3d ............................................. Passim
Ochoa v. State,
2006 OK CR 21, 136 P.3d 661 ............................................ 16
Pickens v. State,
2005 OK CR 27, 126 P.3d 612 ......................................... 16, 22

Ill

Rondon v. State,
711 N.E.2d 506 (lnd. 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18\

Smith v. lwullin,
379 F.3d 919 (10th Cir. 2004) ..... .... . ... .... . .... .......... . ....... .... . 17

Smith v. Sharp,
935 P.3d 1064 (10th Cir. 2019) ..... . .................................. . 17, 22
Smith v. State~
20 B 0 K CR 14, 306 P.3d 557 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . l 7
State v. White,
885 N.E.2d 905 (Ohio 2008) .......... . ... . .... . .... . .. . .. . .. . ......... .. . J8

Ybarra v. State,
247 P.3d 269 (Nev. 2:011) ... ..... ........ ........ .. . ...... . .. . ........... 18

CONSTITUTIONAL AUTHORITY

United States Constitution
U.S. Const., amend. Vin . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

U. S. Const., amend . . XIV .

4

...

~

.

...

.

4

..

t

..

......

...

...

...

..

...

...

...

...............

...

...

...

...

...

...

...

....

.

~

..

..

..

•

•

2

Oklahoma Constitution
Ok1a. Const. Art. II, § 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Okla. Const . Art. II, § 9 . . . . . ~ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

STATUTORY AUTHORITY

28 U.S.C. § I 257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . I
Okla. Stat. tit. 21, § 64 5 (2011 ) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Okla. Stat. tit. 21. § 652 (c) (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Okla. Stat. tit. 21, § 70l.7(A) (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Okla. Stat. tit. 21, § 70 l.1 Ob (20 19 Supp.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 13, 16
Okla. Stat.. tit. 21. § 701.lOb (A), (B)(20J9 Supp.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

iv

Okla. Stat. tit. 21, § 701.lOb (D) (2019 Supp.) ..................................... 11
Okla. Stat. tit. 21, § 701.IOb (I) (2019 Supp.) ...................................... 18
Section 701.13 of Title 21 of the Oklahoma Statutes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

OTHER AUTHORITY
2006 Okla. Sess. Laws.c.290, § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
2019 Okla. Sess. Laws.c.475, § 18 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 16
Lois A. Weithom, Conceptual Hurdles to the Application ofAtkins v. Virginia,
59 HASTrNGS L.J. 1203 (2008) ........................................... 22
Steven J. Mulroy, Execution by Accident: Evidentiary and Constitutional Problems with the
"Childhood Onset" Requirement in Atkins Claims,
37 VT. L. REV. 591 (2013) .......................................... 14, 15, 21

v

Petitioner Alton Alexander Nolen respectfully prays that a writ of certiorari issue to review
the judgment and opinion of the Oklahoma Court of Criminal Appeals entered in the above-entitled
proceeding on March 18, 2021.
LIST OF PARTIES

All parties to this action are named in the caption.
OPINION BELOW

The judgment for which certiorari is sought is Nolen v. State, 2021 OK CR 5, 485 P Jd 820.
The decision in Nolen was filed on March 18, 2021, and is included in the Appendix as Exhibit A.
No Petition for Rehearing was filed.
JURISDICTIONAL STATEMENT

The Oklahoma Court of Criminal Appeals, the highest Oklahoma court in which Petitioner
may obtain state relief, issued its decision affirming Petitioner's convictions and sentences on March
18, 2021. No Petition for Rehearing was filed. Pursuant to this Court's Rule 13.2, Petitioner timely
sought from the Honorable Associate Justice Sonia Sotomayor an extension of time to file a petition
for writ of certiorari. Pursuant to this Court's March 19, 2020, Order, regarding filings during the
COVID-19 pandemic and Rule 30(1) of the Rules of the Supreme Court of the United States, this
petition is due in this Court on or before August 16, 2021. This Court's jurisdiction arises pursuant to
28 u.s.c. § 1257.

l

UNITED STATES CONSTITUTIONAL PROVISIONS INVOLVED
Eieflth Amendment

Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.
Fourteenth Amendment

Section l ... No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

2

OKLAHOMA CONSTITUTIONAL PROVISIONS INVOLVED

OKLA. CONST. Art. II.§ 7
No person shall be deprived oflife, liberty, or property, without due process oflaw.
OKLA. CONST. Art. II.§ 9
Excessive bail shall not be required, nor excessive fines imposed, nor cruel or unusual
punishments inflicted.

3

STATUTORY PROVISIONS INVOLVED
OKLA. STAT. tit. 21, § 701.7(A) (2011)
Murder in the first degree.
A.

A person commits murder in the first degree when that person unlawfully and
with malice aforethought causes the death of another human being. Malice is
that deliberate intention unlawfully to take away the life of a human being,
which is manifested by external circumstances capable of proof

B ....
C....

D.....
OKLA. STAT. tit. 21. § 701.lOb (2019 Supp.)
Intellectual Disability- Death Penalty- Burden - Notice - Evidentiary HearingStandard of Review - Instructions
A. For purposes of this section:

I. "Intellectual disability" or" intellectually disabled 11 means significantly
subaverage general intellectual functioning, existing concurrently with
significant limitations in adaptive functioning;
2. "Significant limitations in adaptive functioning" means significant
limitations in two or more of the following adaptive skill areas:
communication, self-care, home living, social skills, community use,
self-direction, health, safety, functional academics, leisure skills and work
skills; and
3. 0 Significantly subaverage general intellectual functioning" means an
intelligence quotient of seventy (70) or below.
B. Regardless of any provision of law to the contrary, no defendant who is
intellectually disabled shall be sentenced to death; provided, however, the onset of the
intellectual disability must have been manifested before the defendant attained the age
of eighteen (18) years.
C. The defendant has the burden of production and persuasion to demonstrate

intellectual disability by showing significantly subaverage general intellectual
functioning, significant limitations in adaptive functioning, and that the onset of the
intellectual disability was manifested before the age of eighteen ( 18) years. An
intelligence quotient of seventy (70) or below on an individually administered,
4

scientifically recognized standardized intelligence quotient test administered by a
licensed psychiatrist or psychologist is evidence of significantly subaverage general
intellectual functioning; however, it is not sufficient without evidence of significant
limitations in adaptive functioning and without evidence of manifestation before the
age of eighteen ( 18) years. In determining the intelligence quotient, the standard
measurement of error for the test administrated shall be taken into account.
However, in no event shall a defendant who has received an intelligence quotient of
seventy-six (76) or above on any individually administered, scientifically recognized,
standardized intelligence quotient test administered by a licensed psychiatrist or
psychologist, be considered intellectually disabled and, thus, shall not be subject to
any proceedings under this section.
D. A defendant charged with capital murder who intends to raise an intellectual
disability as a bar to the death sentence shall provide to the state notice of such
intention at least ninety (90) days after formal arraignment or within ninety (90) days
after the filing of a bill of particulars, whichever is later. The notice shall include a
brief but detailed statement specifying the witnesses, nature and type of evidence
sought to be introduced. The notice must demonstrate sufficient facts that demonstrate
a good-faith belief as to the intellectual disability of the defendant.
E. The district court shall conduct an evidentiary hearing to determine whether the
defendant is intellectually disabled. If the court determines, by clear and convincing
evidence, that the defendant is intellectually disabled, the defendant, if convicted, shall
be sentenced to life imprisonment or life without parole. If the district court
determines that the defendant is not intellectually disabled, the capital trial of the
offense may proceed. A request for a hearing under this section shall not waive
entitlement by the defendant to submit the issue of an intellectual disability to a jury
during the sentencing phase in a capital trial if convicted of an offense punishable by
death. The court's determination on the issue of an intellectual disability shall not be
the subject of an interlocutory appeal.
F. The court shall submit a special issue to the jury as to whether the defendant is
intellectually disabled. This special issue shall be considered and answered by the jury
during the sentencing stage and prior to the determination of sentence. If the jury
unanimously determines that the defendant is intellectually disabled, the defendant
may only be sentenced to life imprisonment or life without parole. The defendant has
the burden of production and persuasion to demonstrate an intellectual disability to the
jury by a preponderance of the evidence.
G. If the jury determines that the defendant is not intellectually disabled or is unable to
reach a unanimous decision, the jury shall proceed to determine the existence of
aggravating and mitigating factors in determining whether the sentence of death shall
be imposed. In those deliberations, the jury may consider any evidence of an
intellectual disability as a mitigating factor in sentencing the defendant.

5

H. If the jury determines that the defendant is not intellectually disabled and imposes a
death sentence, the trial court shall make findings of fact and conclusions of law
relating to the issue of whether the determination on the issue of an intellectual
disability was made under the influence of passion, prejudice, or any other arbitrary
factor. The findings shall be attached as an exhibit to the report of the trial judge
required under Section 701.13 of Title 21 of the Oklahoma Statutes. If the trial court
finds that the determination of an intellectual disability was not supported by the
evidence, the issue may be raised on appeal to the Oklahoma Court of Criminal
Appeals for consideration as part of its mandatory sentence review.
I. The standard of review for a trier of fact intellectual disability determination shall be

whether, after reviewing the evidence in the light most favorable to the state, any
rational trier of fact could have found the defendant not intellectually disabled as
defined by this section, giving full deference to the findings of the trier of fact.
J. The court shall give appropriate instructions in those cases in which evidence of the
intellectual disability of the defendant requires the consideration by the jury of the
provisions of this section.
OKLA. STAT.

tit. 21, § 652(C) (2011)

Shooting with Intent to Kill -Assault and Battery with Deadly Weapon, etc.

A ....
B ....

C.

Any person who commits any assault and battery upon another, including an
unborn child as defined in Section 1-730 of Title 63 of the Oklahoma Statutes,
by means of any deadly weapon, or by such other means or force as is likely to
produce death, or in any manner attempts to kill another, including an unborn
child as defined in Section 1-73 0 of Title 63 of the Oklahoma Statutes, or in
resisting the execution of any legal process, shall upon conviction be guilty of
a felony punishable by imprisorunent in the State Penitentiary not exceeding
life.

D....
E.....
OKLA. STAT.

tit. 21, § 645 (2011)

Assault and Battery with a Dangerous Weapon

6

Every person who, with intent to do bodily harrn and without
justifiable or excusable cause, commits any assault, battery, or assault
and battery upon the person of another with any sharp or dangerous
weapon, or who, without such cause, shoots at another, with any kind
of firearm, air gun, conductive energy weapon or other means
whatever, with intent to injure any person, although without the intent
to kill such person or to commit any felony, upon conviction is guilty
of a felony punishable by imprisonment in the State Penitentiary not
exceeding ten (10) years, or by imprisonment in a county jail not
exceeding one (1) year.

7

STATEMENT OF THE CASE
Petitioner was convicted of one count of First Degree (Malice Aforethought) Murder (Count
1), one count of Assault and Battery with a Deadly Weapon (Count 2), and four counts of Assault and
Battery with a Dangerous Weapon (Counts 3-6). Petitioner was sentenced to life in prison on Counts
2, 4, and 5; fifty-five years imprisonment on Count 3; and seventy-five years imprisonment on Count
6. In a separate penalty phase on the murder charge, the jury found the existence of four aggravating
circumstances: (1) that the defendant was previously convicted of a felony involving the use or threat
of violence to the person; (2) that the defendant knowingly created a great risk of death to more than
one person; (3) that the murder was especially heinous, atrocious, or cruel; and (4) that there exists a
probability that the defendant would commit criminal acts of violence that would constitute a
continuing threat to society. Petitioner was then sentenced to death for murder.

A.

Statement of the Facts
On September 25, 2014, Alton Nolen was working the Bruschetta line at Vaughan Foods in

Moore, Oklahoma, along with Jeremy Hartman, Latoyia Nunley, Traci Johnson, and others. (Tr.
736-37, 763, 869-74) A couple of his coworkers had issues with the way he was stirring the
bruschetta and told him to put his back into it. (Tr. 771) When Traci told him to "man up," however,
his whole demeanor changed, and he said, "You're not going to tell me what to do. I'm not no boy,
I'm a man." (Tr. 771-72) They went back and forth over this, and Traci called him lazy and a spoiled
brat. (Tr. 876-77) Mr. Nolen then said, "You know what, I beat Caucasians." This prompted Traci
to take off running. (Tr. 772)
Traci went to her supervisor, Timothy Bluford, and told him what happened. (Tr. 789, 880)
He told her to sit down and write a statement. (Tr. 880) Mr. Bluford also had Mr. Nolen come into
the office and fill out a statement, giving his side of the story. (Tr. 790-91) He wrote:

8

I was dealing with a batch [of] bruschetta [and] the white lady
(Gentile) told me that I need to stir it up after I had already stirred it. I
then told her it was no need for it [and] to tone her voice[,] that I'm 30
[years] old [and] not one of her kids, so then she reply I'm a immature
brat and I kind [of] laughed about it in a way of blowin the comment
off. So then 5-10 mins passed and she told the black woman on the
line that I got Caucasians (Gentiles) fucked up. So after hearing that
statement I tells the black woman that I beat on Caucasians (Gentiles).
So then she left the line. I'm a Muslim [and] my religion come before
anything!
(St. Exh. 225) Mr. Bluford told Mr. Nolen to return to work on the line. Mr. Bluford then called
Human Resources and told them that a threat had been made. (Tr. 795)
Human Resources sent a security guard over to escort Mr. Nolen to the office. {Tr. 795,
833-35, 941) Latosha Davis, the senior "generalist" for the Human Resources department of Vaughan
Foods, told Mr. Nolen they were going to have to suspend him, pending an investigation. (Tr. 942)
He was not happy with the fact that they were just taking someone else's word, and Ms. Davis ended
up telling him that he would either have to resign or accept the suspension. He handed her his badge,
and she had security escort him to clean his locker and then to leave the premises. (Tr. 836-37, 943)
It was about ten to fifteen minutes later when the phones started ringing off the hook in Ms. Davis's

office, and based on the phone calls, she and her co-workers locked themselves inside the office. (Tr.
948-49)
During this time, Gary Hazelrigg was working in his office. He was a customer service
manager and worked in part of the building that had offices and cubicles. (Tr. 500-01; St. Exh. 195)
Colleen Hufford had come into his office to talk about an order. (Tr. 514-15) She came to his desk
and handed him the order to look over. (Tr. 515-16) He started looking at it, but some blur out of the
corner of his eyes caught his attention, and when he looked up, there was a man grasping Colleen, and
he had a large butcher's knife in his hand in the area across her throat. (Tr. 516) The man pulled her
forehead back to expose her throat and drew the knife across her throat in a deep cutting manner. (Tr.
9

516-17) As Mr. Hazelrigg got up, the man dragged Colleen out into the open area where the cubicles
were. The man had her on the floor facing up. He straddled her and started to violently saw across
her neck. (Tr. 517)
Mr. Hazelrigg began screaming for help and grabbing at the man's clothing, neck, and
shoulders to try and pull him back to no avail. (Tr. 517) It was about this point that Sam Thurman
happened by and ran up and punched Mr. Nolen as hard as he could, falling over his legs in the
process. He immediately got back up and grabbed Mr. Nolen by the shoulders trying to pull him off
of Colleen. That was when Mr. Thurman saw that Mr. Nolen was pushing Colleen's face down with
his left hand while sawing back and forth on her neck with the knife in his right hand. (Tr. 564) He
realized at this point that they needed more help, because he and Hazelrigg had no affect on Mr.
Nolen whatsoever. So he went out the door and down the hallway yelling for help. (Tr. 565)
Mark Vanderpool and Bryan Aylor were in the parking lot when he learned of the disturbance
and came back into the building and into the offices to see the defendant on his knees sawing at
Colleen's neck. (Tr. 644-48, 699-701) Mr. Vanderpool ran up and kicked Mr. Nolen as hard as he
could under the chin with a steel-toed boot. (Tr. 651-52) Mr. Nolen's headjerked back, but then he
immediately went back to cutting. (Tr. 420) It was at this time that Vanderpool and Aylor grabbed
Mr. Nolen, prompting him to get up and chase them around the cubicles. (Tr. 703-04) Mr. Nolen
ended up overpowering Mr. Aylor, who fell on his back but continued to bicycle kick at Mr. Nolen
until he suddenly jumped up and ran away. So Aylor also jumped up and left the building. (Tr. 705)
Mr. Hazelrigg used this time to call 911, but then Mr. Nolen came back and went after
Hazelrigg with the knife. Mr. Hazelrigg was able to hold a chair between him until Mr. Nolen was
again distracted by something, and then Mr. Hazelrigg ran out the rear door. (Tr. 522-24) At about
this time, Mr. Vanderpool called 911 and also the head of security, Dan Vreeland, and waited outside

10

under an awning for assistance. (Tr. 654, 657) A few minutes later, Vreeland and company owner
Mark Vaughan, who was also a reserve deputy with the Oklahoma County Sheriffs Office, arrived.
(Tr. 657-58, 900-01, 962-63)
The men entered the building, with Mr. Vaughan, armed with an AR-15, taking the lead. (Tr.
903, 962-63) There was a lot of yelling and screaming and people flowing past as Mr. Vaughan
proceeded down the hallway and to the right. (Tr. 395-96) It was at this point that he saw a struggle
taking place between Mr. Nolen and Traci Johnson. (Tr. 966) Mr. Nolen had happened upon Ms.
Johnson and pushed her up against the wall and started slicing on her neck with a knife. (Tr. 886-87)
Mr. Vaughan yelled at Mr. Nolen to stop, and Mr. Nolen turned to him and, after a moment of
hesitation, started running straight for him. (Tr. 966-67) At a distance of about fifteen feet, Mr.
Vaughan fired three rounds in rapped succession. Mr. Nolen stopped his forward movement, leaned
against the wall, and slid down to the ground. (Tr. 664, 968)

B.

How the Issue Was Raised and Decided Below
Under Oklahoma law. a defendant charged with capital murder intending to raise a claim of

intellectual disability as a bar to a death sentence must provide the prosecution with notice of such
intention. See OKLA. STAT. tit. 21, § 701.1 Ob(D) (2019 Supp.). Petitioner did so on September 20,
2016. (O.R. 260-64) Upon filing such a notice, Oklahoma law requires the district court to hold a
hearing to detennine whether the defendant is intellectually disabled. Id. § 70 I .1 Ob(E). At this
hearing, the defendant has the burden of proving intellectual disability by clear and convincing
evidence. Id. If the defendant prevails, then in the event of a conviction of first degree murder, the
only available sentences are either life imprisonment or life without the possibility of parole. Id.
Otherwise, the question of the defendant's intellectual disability is then presented to the jury during
the sentencing stage and prior to determination of sentence. Id. § 701.1 Ob(F).

I1

Pursuant to this procedure, a hearing on Petitioner's intellectual disability claim was held on
April 7, 2017. In support of his claim, Petitioner presented the testimony of Dr. Daniel James
Reschly, a forensic psychologist and Professor of Education and Psychology emeritus at Vanderbilt
University. (Atkins Hrg. Tr. 11) The prosecution presented no evidence in rebuttal. Nevertheless,
while finding that Petitioner's IQ score was in the range of 66 to 74 and that his intellectual disability
manifested before the age of 18, the trial court found that Petitioner had failed to prove by clear and
convincing evidence that he was intellectually disabled. (Atkins Hrg. Tr. 247-50)
At a subsequent jury trial held from September 13 to October 12, 2017, Petitioner was
convicted of first degree murder, among other offenses. The question of his intellectual disability was
then presented to the jury in a separate stage of trial for that purpose alone. Once again, in support of
his intellectual disability claim, Petitioner presented Dr. Reschly's testimony, as well as that of Dr.
Jeanne Russell, the forensic psychologist who actually administered the tests upon Petitioner, and
various lay witnesses as foundation and corroboration of the experts' opinions that Petitioner suffers
from significantly subaverage intellectual functioning. (Tr. 2495-3065) The State rebutted this
evidence with the testimony of its own expert, Dr. Jarrod Steffan, who reviewed the testing
administered by Petitioner's experts, as well as several lay witnesses of its own. (Tr. 3065-3411)
After less than two hours of deliberation, the jury found that Petitioner was not "mentally retarded." 1
(Tr. 3443-44)
On appeal, Petitioner claimed that the jury's verdict on the question of intellectual disability
was contrary to the clear weight of evidence presented at trial. See Proposition I, BriefofAppellant at
6-14. In the brief in chief and at oral argument, held on November 17, 2020, Counsel for Petitioner

~ The statutory law extant at the time of Petitioner's trial used the now outdated term "mentally retarded." The
Oklahoma Legislature updated the law to use the current language of "intellectual disability" effective November l,
2019. See 2019 OKLA. SESS. LAWS c. 475, § 18.

12

argued that review of this claim should not be subjected to the same highly deferential standard of
review as that imposed for review of the sufficiency of the evidence for determinations of guilt under
Jackson v. Virginia, 443 U.S. 307 (1979). See BriefofAppellant at 13-14. Without directly

addressing this argument, the Oklahoma Court of Criminal Appeals reviewed Petitioner's claim under
a standard at least as deferential as the Jackson standard. See Nolen v. State, 2021 OK CR 5, ~ 14,
485 P.3d 829, 837 (citing Lambert v. State, 2005 OK CR 26, ~ 12, 126 P.3d 646, 653; and OK.LA.
STAT. tit. 21, § 701. lOb(I) (2019 Supp.)). In fact, the court arguably went well beyond the Jackson
standard by proclaiming that it would not "disturb the jury's verdict where 'there is any competent
evidence reasonably tending to support it."' Id. (quoting Howell v. State, 2006 OK CR 28, ~ 41, 138
P.3d 549, 562). Under this standard, the court begrudgingly admitted that Petitioner's IQ score falls
"within the range required to demonstrate significantly subaverage intellectual functioning." Id. at ~
31, 485 P.3d at 839. Nevertheless, the court determined that the jury's finding against intellectual
disability could have been reasonable either under the theory that, reviewing the evidence in the light
most favorable to the prosecution, Petitioner had failed to prove by a preponderance of the evidence
either that he has significant limitations in adaptive functioning or that his deficits manifested before
the age of eighteen. Id. at W53, 59, 485 P.3d at 844, 845.

t3

REASON FOR GRANTING THE WRIT AND SUMMARY OF ARGUMENT
I

The Decision of the Oklahoma Court of Criminal Appeals, and the Legislation It
Relies Upon, Imposes an Unconstitutionally High Burden Prior to Trial, at Trial,
and on Appeal, for Capital Defendants to Demonstrate Their Ineligibility for the
Death Penalty Due to an Intellectual Disability.

In Atkins v. Virginia, 536 U.S. 304 (2002), this Court held for the first time that execution of
criminals who were "mentally retarded," or in more current tenninology "intellectually disabled," at
the time of the crime violates the Eighth Amendment to the United States Constitution. Central to the
Court's holding was the recognition that applying intellectual disability as simply a mitigating
circumstance was insufficient to ensure that the death penalty would not be imposed in spite of
factors calling for a less severe penalty. Id. at 320-21. In the nineteen years since Atkins was decided,
there have been precisely zero documented cases of a capital defendant in Oklahoma prevailing on
this issue as a contested matter before either a district court judge prior to trial or a jury during trial
(after the jury has heard all the gruesome details of the defendant's crimes and found him guilty
therefor).
The Court in Atkins left it to the States to develop appropriate ways to enforce the proscription
against executing intellectually disabled offenders. Id. at 317. Since that time, virtually all States that
still utilize the death penalty have adopted a similar three-part definition of"mental retardation" or
intellectual disability: (1) significantly subaverage general intellectual functioning, as evidenced by an
IQ score of 70 or below, taking into account the test's margin of error; (2) significant limitations in
adaptive functioning; and (3) intellectual disability having manifested itself prior to the age of 18. See
Steven J. Mulroy, Execution by Accident: Evidentiary and Constitutional Problems with the
In Hammon v. State, 2004 OK CR 13, ~ 3, 88 P.3d 891, 892, the trial court found the defendant to be
"mentally retarded" after the parties waived jury trial on the issue and stipulated that the "allegations of mental
retardation were true and further trial was unnecessary."
2

14

"Childhood Onset" Requirement in Atkins Claims, 37 VT. L. REV. 591, 601 & n.67 (2013) (citing
cases and statutes). This is indeed the definition adopted by the Oklahoma Legislature. See
OKLA.STAT. tit. 21, § 701.lOb(A), (B) (2019 Supp.).
The first procedure for litigating Atkins claims in Oklahoma was set out by the Oklahoma
Court of Criminal Appeals in Murphy v. State, 2002 OK CR 32, 54 P.3d 556 (Murphy 1). Pertinent to
the issue presented here, the Court set out that unless the issue is resolved prior to trial, it shall be
decided by the jury during the sentencing stage of trial. Id. at , 32, 54 P .3d at 568. In the event that
the jury ruled against the defendant and imposed a death sentence, then at the defendant's request, the
trial court was required to hold a post-judgment Atkins hearing, at which the court was to conduct a de

novo review of the evidence presented at trial to "determine whether or not the defendant [was
intellectually disabled] ... using a preponderance of the evidence standard." Id. at, 35, 54 P.3d at
569. If the trial court determined that the defendant was intellectually disabled, despite the jury's
verdict, then that issue could be raised as a proposition of error on appeal pursuant to the State of
Oklahoma's statutory mandatory sentence review for capital cases. Id.
Unsurprisingly, the first cases that came up before the Oklahoma Court of Criminal Appeals
were death penalty cases where the convictions and sentences had already been upheld on appeal.
Several of these cases were remanded for evidentiary hearings and/or jury trials on applications for
post-conviction relief in light of Atkins. Ultimately, three cases prevailed before Oklahoma courts. In

Hammon v. State, 2004 OK CR 13,, 3, 88 P.3d 891, 892, the trial court found the defendant to be
"mentally retarded" after the parties waived jury trial on the issue and stipulated that the "allegations
of mental retardation were true and further trial was unnecessary." The Oklahoma Court of Criminal
Appeals therefore modified the defendant's sentence to life without the possibility of parole. Id. at,
6, 88 P.3d at 892. In two other cases, the Oklahoma Court of Criminal Appeals found the remanded

15

jury verdicts that the defendant was not "mentally retarded" were against the great weight of the
evidence. See Lambert v. State, 2005 OK CR 26, if 4, 126 P.3d 646, 650; Pickens v. State, 2005 OK
CR 27, ~ 4, 126 PJd 612, 614-15.3 In all other cases, the court affirmed the determinations on
remand that the defendants were not mentally retarded, applying a highly deferential standard of
review. See Myers v. State, 2005 OK CR 22, ~ 4, 7-8, 130 PJd at 265-67; Hooks v. State, 2005 OK
CR 23, if 3, 126 PJd 636, 639-40; Blonner v. State, 2006 OK CR 1, if 4, 127 PJd 1135, 1139; Ochoa
v. State, 2006 OK CR 21, if 34, 136 P.3d 661, 670; Howell v. State, 2006 OK CR 28, if 51, 138 P.3d

549, 564.
In 2006, the Oklahoma Legislature finally managed to pass a statute implementing standards

governing claims under this Court's Atkins decision. See 2006 OKLA. SESS. LAWS c.290, § 1. With
one fairly recent amendment to update language in the statute to comport with more current science,
see 2019 OKLA. SESS. LAWS c. 475, § 18, that procedure still governs Atkins claims in Oklahoma. See

OKLA. STAT. tit. 21, § 701. lOb (2019 Supp.). Under that statutory framework, claims of intellectual
disability are initially presented to the trial judge in a pre-trial hearing, at which the defendant bears
the burden of proving intellectual disability not by a preponderance of the evidence but by clear and
convincing evidence. Id. § 701.1 Ob(E). If the defendant fails to meet this heavy burden of proof, he
is then allowed to submit his claim as a "special issue" to the jury during sentencing, prior to the
determination of sentence. Id. § 701.1 Ob(F). Here, the defendant's burden is merely by a
preponderance of the evidence. Id. While the statute preserves the procedure of having the trial court
3

It should be noted that the court found numerous trial errors to have occurred in these cases, which clearly
contributed to the court's ultimate resolutions of those cases. For instance, in Lambert, the court found that the trial
court's refusal to sequester the jury after the case was presented to them for decision was presumptively prejudicial; that
the trial court's denial of individual voir dire "led directly to a tainted jury panel"; that the trial court allowed the
prosecution to present evidence that was clearly more prejudicial than probative; and that the accumulation ofthese errors
requires relief. Lambert, supra at iMf 13, 16, 17-31, 32, 126 P.3d at 653, 654; 654-59, 659. The court explicitly found
that the trial court's refusal to sequester the jury contributed to its decision to modify the defendant's death sentence to
life without parole. Id. at 1J 13, 126 P.3d at 653. Similarly, in Pickens, the court found that instructional error likely
contributed to the jury's erroneous verdict. Pickens, supra at1J 36, 126 P.3d at 620.

16

make a finding of whether the verdict was made under the influence of passion, prejudice, or other
arbitrary factors, id. § 701.1 Ob(H), it explicitly establishes the standard of review on appeal as
whether, viewing the evidence in the light most favorable to the State, any rational trier of fact could
have found the defendant not intellectually disabled, id. § 701.lOb(I).
Since 2006, one capital defendant in Oklahoma has managed to escape the death penalty due
to intellectual disability under Atkins. Roderick Smith was one of the many Oklahoma capital
defendants who were remanded for mental retardation determinations immediately after Atkins. On
remand, a jury found that he was not mentally retarded. Smith v. Sharp, 935 F.3d 1064, 1069 (10th
Cir. 2019). Smith's case has a rather odd procedural posture, because before the Oklahoma Court of
Criminal Appeals could review the jury's verdict on that issue, the to•h Circuit Court of Appeals
granted habeas relief on another issue, entitling Smith to resentencing. Id. (citing Smith v. Mullin, 379
F.3d 919 (10th Cir. 2004)). For reasons that are not at all readily apparent, the Oklahoma Court of
Criminal Appeals subsequently reviewed the proceedings from Smith's 2004 jury trial on mental
retardation and affirmed the jury's verdict in an unpublished order. See Smith v. State, 2013 OK CR
14, ~ 2, 306 P.3d 557, 562. After more than a decade of additional litigation on this and other claims,
the Tenth Circuit Court of Appeals found in 2019 that the Oklahoma Court of Criminal Appeals's
decision to uphold the jury's finding against "mental retardation" unreasonable and granted habeas
relief. Smith, 935 F.3d at 1078, 1088.
Following the statutory procedure, Mr. Nolen gave notice prior to trial of his intent to assert a
claim of intellectual disability as a bar to imposition of a death sentence. (O.R. 260-64) After a pretrial hearing on the issue, the district court judge found that Mr. Nolen had proven by clear and
convincing evidence that his IQ was in the range of 66 to 74, establishing that he suffers from
significantly sub-average intellectual functioning, and that this disability manifested itself before the

17

age of 18. (Atkins Hrg. Tr. 248) Nevertheless, the court found that Mr. Nolen had failed to prove by
clear and convincing evidence that he had significant limitations in adaptive functioning. (Atkins
Hrg. Tr. 248-50) At trial, the issue was submitted to the jury prior to sentencing under a
preponderance of the evidence standard. After less than two hours of deliberation, the jury returned a
verdict of"not mentally retarded." (Tr. 3443-44; O.R. 1466)
On appeal, Mr. Nolen claimed that the jury's verdict was contrary to the clear weight of the
evidence. See BriefofAppellant at 6-14. Mr. Nolen explicitly asked the court not to apply the strict
reasonable factfinder test of Jackson v. Virginia, 443 U.S. 307 (1979), noting that other states apply a
less rigorous, though still deferential, standard of review to these claims. See BriefofAppellant at 1314 (citing Nixon v. State, 2 So.3d 137, 141 (Fla. 2009) (reviewing intellectual disability claims to
determine whether competent, substantial evidence supports the factual findings and reviewing the
legal conclusions de novo); Ybarra v. State, 247 P.3d 269, 276 (Nev. 2011) (requiring findings to be
supported by substantial evidence and not clearly erroneous, again reviewing legal consequences de
novo); Rondon v. State, 711N.E.2d506, 516 (lnd. 1999) (applying some sort of"abuse of discretion"

or "clearly erroneous" standard); State v. White, 885 N.E.2d 905, 915-16 (Ohio 2008) (same);
Commonwealth v. Crawley, 924 A.2d 612, 616 (Pa. 2007) (same)).

Nevertheless, the Oklahoma Court of Appeals reviewed the claim in the light most favorable
to the State to determine whether any rational trier of fact could reach the same conclusion. Nolen v.
State, 2021 OK CR 5, ii 14, 485 P.3d 829, 837 (citing Lambert v. State, 2005 OK CR 26, ii 12, 126

P.3d 646, 653; Howell v. State, 2006 OK CR 28, ii 41, 138 P.3d 549, 562; OKLA.STAT. tit. 21, §
701.1 Ob( I) (2019 Supp.)). Indeed, the court arguably applied an even more onerous burden, stating
that it would "not disturb the jury's verdict where 'there is any competent evidence reasonably tending
to support it."' Id. (quoting Howell, supra at iJ 41, 138 P.3d at 562) (emphasis added). Without

18

expressly stating as much, the court appears to have concluded that Mr. Nolen met his burden of
proving that he suffers from significantly sub-average intellectual functioning, with the evidence
indicating that his IQ score, when adjusted for the standard error of measurement, yields a range of 65
to 75. Id. at ii 31, 138 P.3d at 839-40. Nevertheless, the court found that the evidence supported the
jury's verdict of "not mentally retarded" under either or both of the remaining prongs, to wit: adaptive
functioning deficits and/or manifested before age 18.
Two experts testified for the defense at trial that Mr. Nolen had significant deficits in at least
three or more areas of adaptive functioning. Dr. Jeanne Russell, the only testifying expert to have
actually examined and evaluated Mr. Nolen in person for intellectual disability, concluded that he had
significant deficits in self-care, social skills, self-direction, health and safety, and functional
academics. (Tr. 2544) Dr. Daniel Reschly testified that Mr. Nolen had significant deficits in
communication, social skills, community use, self-direction, health and safety, functional academics,
and leisure. (Tr. 2948) In contrast, Dr. Jarrod Steffan, who was never able to meet with Mr. Nolen in
person,4 concluded that Mr. Nolen had no deficits in intellectual functioning, finding it significant that
Paige Nolen, Appellant's sister who supplied information to Dr. Russell for the Vineland II test, was a
"biased reporter" who "did not possess a solid basis of knowledge regarding Nolen's adaptive skills."

Nolen, supra at ii 47, 485 P.3d at 843.s Dr. Steffan did find that Mr. Nolen had "some adaptive
4

During the course of preparing for trial, Mr. Nolen was diagnosed as suffering from a severe mental illness
in the schizophrenia spectrum. (Tr. 1590, 1149) Questions regarding Mr. Nolen's competency to stand trial resulted
in two separate trials on the issue throughout the district court proceedings, first in October 2015 and again in April 2017.
Beginning in February 2016, Mr. Nolen had absolutely stopped cooperating with his trial attorneys. (5120/2016 Tr. 3)
This came after a formal arraignment where Mr. Nolen was unable to enter a simple plea of not guilty and instead argued
with the judge and espoused delusional pseudo-Islamic beliefs. (Arr. Tr. 4-29)
5

Dr. Steffan also referenced a handwritten letter "purportedly" written by Nolen to the director of the
Department of Corrections, Nolen, supra at , 50 , 485 P.3d at 843, but there was no evidence presented at trial as to how
this letter came to be prepared, what help Mr. Nolen may have gotten in preparing it, or indeed even if it was in his
handwriting. The Oklahoma Court of Criminal Appeals further found that Mr. Nolen's handwritten statement about the
verbal altercation with a co-worker that resulted in his being suspended demonstrated that "Nolen was able to write and
express himself coherently." Id. at 50 n, 19, 485 P Jd at 843 n. 19. A copy of that statement was admitted at trial as
State's Exhibit 225 (cropped here):

19

functioning deficits in the way he deals with his life," but he attributed that to a diagnosis
(unsupported by any testing) of an "unspecified personality disorder with antisocial traits." Id. at if 51,
485 P.3d at 844. The court also found it significant that the two experts testifying for the defense had
"only agreed with each other that Nolen suffered significant limitations in the two areas of functional
academics and social skills." Id. at if 52, 485 P.3d at 844. In fact, Drs. Russell and Reschly had also
agreed that Mr. Nolen had significant deficits in health and safety. (Tr. 2544, 2948)
As to whether Mr. Nolen's intellectual disability manifested before the age of 18, the court
below put great emphasis on Dr. Steffan's testimony that his test scores in elementary school "ranged
from the 2"d percentile to the 99th percentile on the different areas of academic skills." Id. at if 57, 485
P.3d at 844. While Dr. Steffan did indeed so testify, (Tr. 3344), it is not at all clear from where he got
Mr. Nolen having scored in the 99th percentile on any test. No other testimony or documentary
evidence presented at trial referenced a 99th percentile score. Indeed, even ifit had, Dr. Steffan's
testimony was a gross and misleading generalization. Mr. Nolen scored in the 41h percentile on the
Kindergarten Metropolitan Pre-Reading Composite. (Tr. 2877) He was subsequently held back a
year in first grade, and though he later tested at the 60111 percentile on the Iowa Test of Basic Skills in
March 1992, that was after he was well into his second year of first grade, where his scores were
being compared to other first graders who were a year younger than he. (Tr. 2877, 2879) In third

20

grade, he scored in the 341h percentile; in fourth grade, he scored in the 21 51 percentile~ and in fifth
grade, he scored in the gth percentile. (1 51 Comp. Tr. 260-61) As noted previously, the trial court
found prior to trial that Mr. Nolen had established by clear and convincing evidence that his disability
manifested before age 18. Under the same evidence a jury could not reasonably find that the evidence
preponderates in favor of a finding that it did not.
Scholars have recognized that ''many courts set the bar of proof too high in multiple ways"
when applying the intellectual disability definition in capital cases. See Steven J. Mulroy, Execution
by Accident: Evidentiary and Constitutional Problems with the "Childhood Onset" Requirement in
Atkins Claims, 37 VT. L. REV. 591, 593 (2013). Courts seem to "expect actual IQ and/or other

psychological tests to have been administered when the defendant was a child." Id. Requiring such
proof is unrealistic, "given that so many of those sentenced to death are poor, or immigrants, or both,
having grown up in circumstances where such testing was rare." Id. lndeed, the "'age of onset'
requirement is itself irrational, unwarranted, and arguably unconstitutional," because it was designed
by the medical community for clinical treatment purposes. Id. at 594-95. Treatment options are
simply not relevant in the context of capital sentencing.
Another unfair evidentiary obstacle occurs when the intellectually disabled defendant is also
diagnosed with another mental health problem, as Mr. Nolen has been. Id. at 594. Courts then often
reject "Atkins claim[s] based on speculation that the cognitive and emotive deficits could stem from
the other mental disorder." Id. That certainly occurred here with the court giving credence to Dr.
Steffan's speculation that Mr. Nolen's adaptive deficits could be attributed to an "unspecified
personality disorder with antisocial traits." Nolen, supra at if 51, 485 P.3d at 844. "This approach
ignores the 'dual diagnosis' medical consensus that mental retardation often co-presents with a mental
illness." Mulroy, supra at 594. Indeed, it would appear that courts are putting too much emphasis on

21

the adaptive skills criterion, which was only created to "provide confirmation of the diagnosis of
'mental retardation' obtained with standardized IQ tests, that is, as a check against measurement error
rather than as a way of measuring aspects of functioning not tapped by the IQ tests." Lois A.
Weithom, Conceptual Hurdles to the Application ofAtkins v. Virginia, 59 HASTINGS L.J. 1203, 1218
(2008). While Drs. Russell and Reschly did not agree on several areas of intellectual functioning,
they both agreed that Mr. Nolen had significant limitations in three areas of adaptive functioning:
social skills, health and safety, and functional academics. (Tr. 2544, 2948) Dr. Steffan, who never
met with Mr. Nolen face-to-face and did not interview any witnesses who knew Mr. Nolen to the
point of being familiar with his home life at the time of the crime, simply disagreed.
In summary, in the nearly twenty years since Atkins was decided, not one single capital

defendant in Oklahoma has prevailed on a claim of"mental retardation" before a jury at trial. Two
defendants had their death sentences vacated on appeal after the Oklahoma Court of Criminal
Appeals found that significant procedural errors contributed to wrongful determinations on the issue.
See Lambert v. State, 2005 OK CR 26,

4, 126 P.3d 646, 650; Pickens v. State, 2005 OK CR 27, ~ 4,

126 P.3d 612, 614-15.6- In one other case, the Tenth Circuit Court of Appeals found that the
Oklahoma Court of Criminal Appeals had unreasonably determined that the defendant was not
mentally retarded. See Smith V. Sharp, 935 F.3d 1064, 1078, 1088 ( 101h Cir. 2019). Defendant's in
Oklahoma cannot win in front of juries who have already heard and seen all the gruesome details of
the murder(s), nor can they win on appeal before a court that applies a far too deferential standard of
review to intellectual disability claims. The promise of Atkins is, in Oklahoma, an empty one.

6

See also footnote 3, supra.

22

CONCLUSION
Alton Alexander Nolen respectfully requests this Court grant this petition for certiorari to the
Oklahoma Court of Criminal Appeals on the question presented. Petitioner further requests that this
Court vacate the death sentence in this case and grant such other relief as it deems appropriate.
Respectfully submitted,
ALTON ALEXANDER NOLEN

Jam
l f. Lockard
Ok ahoma Bar No. 18099
Homicide Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070-0926
Telephone: (405) 801-2665/2666
Telefacsimile: (405) 801-2690
ATTORNEY FOR PETITIONER

23

No. _ _ __

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

AL TON ALEXANDER NOLEN
Petitioner,

v.
THE STATE OF OKLAHOMA
Respondent.

APPENDIX

JAMES H. LOCKARD
Oklahoma Bar No. 18099

Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070
Telephone (405) 801-2666
Telefacsimile (405) 801-2690
ATTORNEY FOR PETITIONER

August 16, 2021

EXHIBIT
Nolen v. State, 485 P.3d 829 (2021)

2021OKCR5

I A

..

~-·····L·' ,.,•.u•.,....'1u,tion
485 P.3d 829
Court of Criminal Appeals of Oklahoma.

comment during opening statement that
victim was "one of the most beautiful and caring ladies that
you'll ever meet," did not impermissibly elicit sympathy or
denigrate defense.

Alton Alexander NOLEN, Appella nt

v.

Affirmed.

The STATE of Oklahoma, Appellee.
Case No. D-2017-1269

l
FILED MARCH

Procedural Posture(s): Appellate Review; Trial or Guill
Phase Motion or Objection.

18, 2021

Synopsis
Background: Defendant was convicted of first degree malice
murder, assault and battery with a deadly weapon, and four
counts of assault with a dangerous weapon. The District
Court, Cleveland County, Lori Walkley, J., imposed death
penalty for murder, life in prison for assault and battery with
deadly weapon and two counts of assault with dangerous
weapon, 55 years' imprisonment for one count of assault with

West Headnotes (52)

Il I

Sentencing and Punishment v- Questions of
fact
The determination of whether a person is
intellectually disabled, and thus ineligible for
death penalty. is a question of fact and on
appellate review, the Court of Criminal Appeals
gives great deference to the jury's finding.

dangerous weapon, and 75 years' imprisonment on final count
of assault with dangerous weapon. Defendant appealed.

121

Sentencing and Punishment .,.. Questions of

Holdings: The Court of Criminal Appeals, Rowland, J., held

fact

that:

The Court of Criminal Appeals will not disturb
the jury's verdict on determining whether
defendant has intellectual d isability, and thus
is ineligible for death penalty, where there is

[ l] finding that defendant was competent to undergo criminal
proceedings, despite alleged intellectual disability, was not
abuse of discretion;

any competent evidence reasonably tending to
support it.

(2) finding that defendant was competent to undergo criminal
proceedings, despite alleged mental illness, was not abuse of
discretion;

131

Sentencing and
Punishment -

[3] removal of potential juror was not required, despite
indication he would not impose straight life sentence;

Presumptions

Sentencing and Punishment fact

Questions of

her safety;

When the defendant challenges the s ufficiency
of the evidence following a jury finding that
he is not intellecrually disabled, the Court of

(5) s ingle restriction in voir dire precluding defense from
asking jurors questions designed to reveal bias regarding
insanity defense did not deny defendant fair trial;

Criminal Appeals will review the evidence in a
light most favorable to the state to determine if
any rational trier of fact could have reached the
same conclusion.

[4] removal of potential juror was not required, despite
contention media exposure about case caused her to question

(6) trial court did not abuse its discretion in admitting
gruesome photos of victim; and

141

Sentencing and Punishment tr> Evidence

WESTLAW Q 202· Thomson Reuters. l'lo cla1-r to or·g1na. U.S Govet11•l1e'1t Work$

Nolen v. State, 485 P.3d 829 (2021)

iofr oKCRS
Determinations regarding defendant's claims of
intellectual disability must be informed by the
views of medical experts.

ISi

[9)

Sentencing and Punishment ..... Persons with
intellectual disabilities

Sentencing and Punishment inlellectual disabilities

Persons with

In determining intelligence quotient of defendant
for purposes of determining death penalty
eligibility, courts must take into account
test's standard error of measurement which
is generally thought to involve error of
measurement of approximately five points;
hence, IQ of 70 is considered to represent band
or zone of 65 to 75.

[71

Sentencing and Punishment
intellectual disabilities

[10)

Sentencing and Punishment
intellectual disabilities

Persons with

~

Persons with

As wilh an evaluation of general intellectual
functioning, a determination of defendant's
deficits in adaptive functioning, for purposes of
detennining death penalty eligibility, must be
infonned by the medical community's diagnostic
framework.

WESTLAW © 2021 Thomson Reuturs ~o

cldl"'

Sentencing and Punishment

~

Evidence

Evidence supported jury's finding that murder
defendant did not show evidence of intellectual
disability manifested before age of 18, for
purpose of determining death penalty eligibility;
allhough defendant was not administered IQ test
before age of 18, his grade school test scores
ranged from 2nd to 99th percentile on different
areas of academic skills, other factors may have
affected grades such as transitioning schools and
instability at home, and defendant was in credit
recovery program separate from students who
had intellectual disabilities, learning disorders,
or received special education services. 21 Okla.
Stat. Ann.§ 701.IOb(C).

Where lower end of defendant's IQ score range
falls at or below 70, which is within range
required to demonstrate significantly subaverage
intellectual function, court ruling on death
penalty eligibility must also consider defendant's
adaptive functioning to determine intellectual
disability.

(8]

Evidence

Murder defendant failed to demonstrate
significant limitations in two or more
enumerated adaptive skill areas needed to
show inlellectual disability, for purpose of
detennining death penalty eligibility; defense
expert testimony that defendant had significant
deficits in conceptual domain based on review
of school records conflicted with defendant's
own testimony that he was not in special
education classes, and school counselor testified
defendant was not in special education classes,
defendant was able to read at average reading
level, he scored within average ranges on
math computations and applied mathematics,
and letter written by defendant contained
understandable points and complete sentences.
21 Okla. Stat. Ann. § 70 I.I Ob(A)(2).

States, deciding death penalty eligibility, may
not adopt faclors for determining if defendant
is intellectually disabled that reflect superseded
medical standards or that substantially deviate
from prevailing clinical standards.

16)

Sentencing and Punishment

[11 J

Constitutional Law \P" Incompetency or
Mental Hlness
Constitutional guarantee of due process of law
includes right to be lried only when one is
sufficiently competent to understand nature of
charges and to assist counsel in preparing
defense. U.S. Const. Amend. 14.

to or g ndl US. Government 1/1/orKs

2

Nolen v. State, 485 P.3d 829 (2021)

2021OKCR5
(121

Mental Health

with attorneys and rationally assist in defense.
and decision-making was not delusional or result
of mental impairment. 22 Okla. Stat. Ann. §

Mental disorder at time of

trial
The standard for competency to stand trial is
whether the defendant has sufficient present
ability to consult with his lawyer with a
reasonable degree of rational understanding and
whether he has a rational as well as factual

I I 75.3(E).

(16)

understanding of the proceedings against him.
U.S. Const. Amend. 14.

1131

Criminal Law -

Evidence

of defendant, defendant demonstrated capacity
to talk about specific charges against him, and
expert did not observe signs of paranoia or
suspiciousness when interviewing defendant. 22
Okla. Stat. Ann. § I I 75.3(E).

incompetence by a preponderance of evidence.
U.S. Const. Amend. 14; 22 Okla. Stat. Ann. §
1175. 1( I).
[17)

Constitutional Law
Mental Illness

~

Incompetency or

Constitutional Law
hearing

~

Necessity; right lo

Mental Health
trial

~

mental competence
trial
Defendant must be competent to stand trial, enter
guilty or nolo contendre plea, or abandon his
appeal.

Mental disorder at time of

(181

hearing, while a substantive competency claim is
founded on the allegation that an individual was

Mental Health ,...... Mental disorder at time of
trial
Defense counsel's doubt as to murder defendant's
present mental competency was not proper basis
to halt post-conviction appellate proceedings.
Okla. Ct. Crim. App. R. 3.1 l(A).

tried and convicted while, in fact, incompetent.
U.S. Const. Amend. 14.

Mental Health trial

Criminal Law ..,... Right to plead guilty;
Mental Health ...- Mental disorder at time of

A due process procedural competency claim is
based upon a trial court's alleged failure to hold a
competency hearing, or an adequate competency

[15)

Menial disorder at time of

Finding that murder defendant was competent
to undergo criminal proceedings, despite alleged
mental illness, was not abuse of discretion; stateoperated mental heallh facilities had no record

Oklahoma law presumes competence to stand
trial, requiring the defendant prove his

(141

Mental Health
trial

Mental disorder at time of

Finding that murder defendant was competent
to undergo criminal proceedings, despite alleged
intellectual disability, was not abuse of
discretion, where competency had not been issue
in defendant's prior convictions, defendant was
not on medication or receiving any treatment
at time of trial, forensic psychologist testified
defendant knew he was charged with murder
and assault for beheading one person and cutting
another's throat, knew he was facing death
penalty or life in prison, was able to consult

119)

Criminal Law .P Overruling challenges to
jurors
In order to properly preserve for appellate
review objection to denial of challenge for cause,
defendant must excuse challenged juror with
peremptory challenge and make record of which
remaining jurors defendant would have excused
if he had not used that peremptory challenge to
cure trial court's alleged erroneous denial of for
cause challenge.

WESTLAW © 2021 T'1omso" Reute's No clam to or1gincil J.S Governp e1t Works.

3

Nolen v. State, 485 P.3d 829 (2021)
2021 OK CR 5

120\

Criminal Law
JUrors

1r-

Defendant on trial for first degree malice murder,
assault and battery with a deadly weapon,
and four counts of assault with a dangerous
weapon, preserved issue for appellate review
as to whether trial court committed reversible
error when it denied counsel's request to remove
three prospective jurors for cause; defendant
used peremptory challenges to strike jurors he
asked to remove for cause, and advised trial
court of four other "unacceptable" prospective
jurors he would have excused with peremptory
challenges had he not been forced to use them on
jurors court would not excuse for cause.

1211

court looks to the entirety of each potential juror's
voir dire and gives deference to 1he ruling of
the trial court because the trial judge is in a
position to personally observe the panelists, and
take into account a number of non-verbal factors
that cannot be observed from a transcript. U.S.
Const. Amend. 14.

Ovemtling challenges to

1251

Removal of potential juror was not required
in capital murder prosecution, despite juror's
indication he would not impose a straight life
sentence in a situation where there was at
least one aggravating circumstance that made
the murder "really, really bad," where, when
presented with scenario in which state proved at
least one aggravating circumstance and defense
presented evidence of mitigating circumstance,
prospective juror stated he would consider
evidence with an open mind and was "open to all
those forms of punishment."

Criminal Law Ii'-' Selection and impaneling
Jury .;- Discretion of court
Decision of whether to disqualify prospective
juror for cause lies within sound discretion of
trial court, and trial court's decision will not be
overturned absent finding of abuse of discretion.

[26\
1221

Jury dire

Summoning and impaneling; voir

Jury """ Examination of Juror
Jury r Laying foundation for peremptory
challenges

127)

Jury

II?

Punishment prescribed for offense

Removal of potential juror was not required
in capital murder prosecution, despite juror's
strong bias against punishment option of life with
possibility of parole, where, after significance
of aggravating and mitigating circumstances was
explained to prospective jurors, juror confirmed
she could leave all three punishment options on
the table until she heard all evidence.

The purpose of voir dire examination is to
discover whether there are grounds to challenge
prospective jurors for cause and to permit the
intelligent use of peremptory challenges. U.S.
Const. Amend. 14.

1241

Jury YF> Influence on verdict
Removal of potential juror was not required
in capital murder prosecution, despite juror's
contention media exposure about case caused
her to question her safety during course of
proceedings, where juror agreed she could set
aside what she had heard in media and listen to
the facts, and court convinced juror court would
ensure safety ofjurors.

A critical part of the constitutional right to an
impartial jury is an adequate voir dire to identify
unqualified jurors. U.S. Const. Amend. 14.

1231

Jury .- Punishment prescribed for offense

Criminal Law ...,. Jury selection
Jury ,;..... Evidence
While doubts regarding juror impartiality must
be resolved in favor of the accused, appellate

1281

Jury ....,. Punishment prescribed for offense

WESTLAW © 2021 Tl1omson Reuters No claim to or'ginal U.S. Government Works.

4

Nolen v. State, 485 P.3d 829 (2021)

2021 OKCR5Removal of potential juror was not required in
capital murder prosecution, despite juror's belief

insanity defense did not operate to deny
defendant fair trial by panel of impartial jurors,
where question asked by counsel to four jurors
whether they believed that "somebody can do
something because of mental illness or insanity
and not know what they were doing was wrong"
was designed to discern whether the jurors
were open to accepting defendant's theory of
defense, rather than whether jurors could apply
law on theory of defense of insanity as their oath
required, and defense was not precluded from

death penalty should be automatically imposed
in first degree murder cases where killing was
mtentional, where, when questioned by trial
court, juror indicated he could consider all three
punishment options.

J291

Criminal Lan ~ Selection and impaneling
Jury

~

Extent of exam ination

asking whether jurors could consider insanity
defense if instructed, asking about mental illness
or different questions about insanity.

Jury .,. Mode of examination
The manner and extent of voir dire is within the
discretion of the trial court whose rulings will not
be disturbed on appeal absent a clear abuse of
discretion.

(301

Jury ,... Competence for Trial of Cause

Jury

~

Bias and prejudice

1351

Criminal Law .,,,... Necessity of Objections in
General
Plain error must be plain and obvious and must
affect the defendant's substantial rights.

1361

Criminal Law ..,.. Necessity of Objections in
General
The Court of Criminal Appeals reverses for
plain error only where error seriously affects
the fairness, integrity or public reputation of the
judicial proceedings.

fair detennination by him of issues to be tried.

Jury .r=- Extent of examination
Jury .,... Mode of examination

1371

Trial court may restrict counsel during voir
dire from asking questions that are repetitive,
irrelevant or which regard legal issues upon
which trial court will subsequently instruct jury.

[331

• Documentary evidence

of discretion.

In voir dire, suitable inquiry is pennissible in
order to ascertain whether juror has any bias,
opinion, or prejudice that would affect or control

(321

Criminal Law

Appellate court reviews trial court's ruling on the
admissibility photographic evidence for an abuse
Guarantee of right to jury trial includes the right
to be tried by jurors who are capable of putting
aside their personal impressions and opinions
and rendering a verdict based solely on the
evidence presented in court. U.S. Const. Amend.
7.

(31 I

1341

Photographs arousing
Criminal Law
passion or prejudice; gruesomeness
Gruesome crimes make for gruesome
photographs; this alone will not render them
inadmissible as long as they are not so
unnecessarily hideous or repulsive that jurors
cannot view them impartially.

Jury _. Summoning and impaneling; v01r
dire
Single restriction on voir dire which precluded
defense counsel from asking prospective jurors
questions designed to reveal juror bias regarding

WEST LAW

[381

Criminal Law ...- Photographs arousing
passion or prejudice; gruesomeness

2021 .... homson Reuters No claim to ong11al US Government 1Norks

--------

5

Nolen v. State, 485 P.3d 829 (2021)

20210KCR5

~~~~~~~~~~~~~~

The state is not required to downplay the
violence involved in crime or its repercussions
in order for photographs related to crime to be
admissible.

143)

Constitutional Law ... Fourteenth
Amendment in general
Sentencing and Punishment to- End11ngcring
or creating risk to others

[39]

Criminal Law """' Photographs arousing
passion or prejudice; gruesomeness

Sentencing and Punishment to- Vileness.
heinousness, or atrocity

Probative value of photographs of beheaded
victim at crime scene and photo taken at medical
examiner's office showing part of victim's face
and knife used in attack was not substantially
outweighed by their prejudicial effect in capital
murder prosecution, and thus trial court did not
abuse its discretion in admitting photos, although
photos were gruesome, where photos depicted
injuries suffered by victim, including defensive
wounds, photo of serrated knife showed it
matched injuries on victim's chin, and photos
corroborated eyewitness testimony. 12 Okla.
Stat. Ann. §§ 2402, 2403.

1401

Criminal Law ~ Pictures of accused or
others; identification evidence

Sentencing and
Punishment ..... Dangerousness
Aggravating circumstances of great risk of
death to more than one person, continuing
threat, and especially heinous, atrocious, or
cruel act, in defendant's prosecution for first
degree malice murder, assault and battery with
a deadly weapon, and four counts of assault
with a dangerous weapon perfonned narrowing
function required by Eighth and Fourteenth
Amendments as well as Oklahoma Constitution.
U.S. Const. Amends. 8, 14; Okla. Const. art. 2,
§§ 7, 9, 20.

1441

Admission of a pre-mortem photograph is
allowed under to show the general appearance
and condition of the victim while alive.

[41)

Constitutional Law
Presumptions and
Construction as to Constitutionality
Legislative acts
constitutional.

1421

are

presumed

to

The alleged prosecutorial misconduct not met
with objection at trial is reviewed for plain error
only.

1451
be

Criminal Law .,,;-- Arguments and conduct of
counsel
The Court of Criminal Appeals evaluates alleged
prosecutorial misconduct within the context of
the entire trial, considering not only the propriety
of the prosecutor's actions, but also the strength
of the evidence against the defendant and the
corresponding arguments of defense counsel.

Criminal Law ~ Photogmphs arousing
passion or prejudice; gruesomeness
In capital murder prosecution, probative value
of pre-mortem photograph of victim introduced
in first stage of trial was not substantially
outweighed by danger unfair prejudice, and thus
court did not abuse its discretion in admitting
photo; photo was an appropriate snapshot of
victim, offered to show her general appearance
and condition while alive. 12 Okla. Stat. Ann. §
2403.

Criminal Law "" Arguments and conduct in
general

1461

Criminal Law ..- Comments regarding
character of victim
Prosecution's
comment
during
opening
statement of capital murder prosecution that
victim was "one of the most beautiful and
caring ladies that you'll ever meet," did not
impennissibly elicit sympathy for victim from

WESTLAW © 2021 Thomson Reute.s. '\Jo claim :o ong1 ial U.S Goverrrnent Wo•ks.

6

Nolen v. State, 485 P.3d 829 (2021)
2021OKCR5

jurors or denigrate evidence supporting insanity
defense, and thus did not constitute prosecutorial
misconduct; statement did not deprive defendant
of fair trial or affect juty's finding of guilt or
assessment of punishment, and comment fell
within wide range of acceptable argument.

1501

Although individual errors may be ofinsufficient
gravity to warrant reversal, combined effect of
cumulative errors may require new trial.

[511

f471

Criminal Law
intent to kill

<F

Homicide and assault with

(481

Criminal Law _. Homicide and assault with
intent to kill
Criminal Law P
offense charged

Comments on character of

Prosecutor's statements in closing argument of
capital murder trial in which he compared inlife photograph of victim with gruesome crime
scene photo and said "Ladies and Gentlemen,
he turned this into this. He turned this beautiful
lady into this on the floor, this and this," did
not unfairly inflame the passions of the jury, and
thus did not constitute prosecutorial misconduct;
argument, and use of properly-admitted photos,
was reasonable comment on the evidence, and
comparison did not render trial fundamentally
unfair.

Criminal Law ..,_ Requisites of fair trial
Commission of several trial errors does not
deprive defendant of fair trial when errors
considered together do not affect outcome of
proceeding.

Criminal Law .;- Appeals to Sympathy or
Prejudice
Prosecutor's statements in first stage closing
argument of capital murder trial essentially
telling juty to not only consider testimony
of all doctors, but to talk about victim and
not forget about what happened to her, did
not improperly elicit sympathy for victim or
denigrate evidence supporting insanity defense,
and thus did not amount to prosecutorial
misconduct; prosecutor's comments fell within
wide range of acceptable argument.

Criminal Law .P. Grounds in general

[521

Criminal Law

.P

Grounds in general

Defendant did not establish cumulative error
claim since there were no errors, either
individually or when considered together, that
deprived defendant of a fair trial.

*834 AN APPEAL FROM THE DISTRICT COURT
OF CLEVELAND COUNTY, THE HONORABLE LORI
WALKLEY, DISTRICT JUDGE
Attorneys and Law Firms
APPEARANCES AT TRIAL
MITCHELL SOLOMON, SHEA SMITH, BENJAMIN
BROWN, OKLAHOMA INDIGENT DEFENSE SYSTEM,
P.O. BOX 1804, NORMAN, OK 73101, ATTORNEYS FOR
DEFENDANT
GREG MASHBURN, DISTRICT ATTORNEY, SUSAN
CASWELL, JOHN PEVEHOUSE, ASSISTANT DISTRICT
ATTORNEYS, DISTRICT ATTORNEY'S OFFICE, 201
SOUTH JONES, NORMAN, OK 73069, ATTORNEYS FOR
STATE
APPEARANCES ON APPEAL

(491

Criminal Law "'"" Grounds in general
The cumulative error doctrine applies when
several errors occurred at the trial court level, but
none alone warrants reversal.

JAMES H. LOCKARD. LYDIA ANDERSON FIELDS,
OKLAHOMA INDIGENT DEFENSE SYSTEM, P.O.
BOX 926, NORMAN, OK 73070, ATTORNEYS FOR
APPELLANT
MIKE
HUNTER,
ATTORNEY
GENERAL
OF
OKLAHOMA, CAROLINE E.J. HUNT, ASSISTANT

WESTLAW © 202' Thomson Reuters No cla1'11 to or g nal U S. Government 1/1/ork.c;.

7

Nolen v. State, 485 P.3d 829 (2021)
2021 OK CR- 5

ATTORNEY GENERAL, JENNIFER L. CRABB,
ASSISTANT ATTORNEY GENERAL, 313 N.E. 2lST
STREET, OKLAHOMA ClTY, OK 73105, ATTORNEYS
FOR APPELLEE

OPINION
ROWLAND, VICE PRESIDING JUDGE:
'Ill Appellant, Alton Alexander Nolen, was charged in the
District Court of Cleveland County, Case No. CF-2014-1 792,
with First Degree Malice Murder (Count I) in violation
of
21 0.S.Supp.2012, § 701.7(A). He was also charged
with Assault and Battery with a Deadly Weapon (Count
2) in violation of
21 O.S.2011, § 652 and Assault
with a Dangerous Weapon (Counts 3-6) in violation of 21
O.S.2011. § 645, each After Former Conviction of Two or
More Felonies. As to Count I, the State sought the death
penalty, and alleged four statutory aggravating circumstances
in support thereof: ( 1) that Nolen was previously convicted of

*835 BACKGROUND
'IJ3 On September 25, 2014, Alton Nolen was working the
bruschetta line with several other employees at Vaughn Foods
in Moore, Oklahoma. One of his co-workers, Traci Johnson,
who was new to the job, told him to stir the mixture more
thoroughly and to put his back into it. She told him that he was
lazy and that he needed to "man up." Nolen became defensive
and agitated and said, "I hate white people, I beat white people
up." Johnson ran from the line and reported the perceived
threat to a supervisor, Timothy Bluford. After having Johnson
write out a statement about the incident, Bluford spoke with
Nolen and had him write out a statement as well. 5 Bluford
advised Human Resources about the threat and subsequently
delivered Nolen to a security guard who escorted him from
the facility. Nolen was suspended pending an investigation.

5

a felony involving the use or threat of violence to the person; 1
(2) that Nolen knowingly created a great risk of death to more
than one person; 2 (3) that the murder was especially heinous,
atrocious, or cruel; 3 and (4) that there existed a probability
that Nolen would commit criminal acts of violence that would
constitute a continuing threat to society. 4

Jiii
~ 21O.S.2011,§701.12(1).
2
• 21 O.S.201 l, § 701.12(2).

3
4

~ 21 0.S.2011, § 701.12(4).

~21O.S.2011,§701.12(6).

'112 The jury imposed the death penalty on Count I
after finding the existence of each alleged aggravating
circumstance. It assessed punishment at life in prison on
Counts 2, 4, and 5; fifty-five years imprisonment on Count
3, and seventy-five years imprisonment on Count 6. The
Honorable Lori Walkley, District Judge, who presided at
trial, sentenced Nolen accordingly and ordered the terms of
imprisonment to be served consecutively. From this judgment
and sentence Nolen appeals. We affirm.

Nolen's statement, admitted at trial as State Exhibit
#25, was written as follows:
I was dealing with a batch bruschetta & the white
lady (gentile) told me that i need to stir it up after
i had already stirred it. I then told her it was no
need for it & to tone her voice that im 30 yrs
old & not one of her kids, so then she reply im
a immature brat and i kind laughed about it in
a way of blowin the comment off, so then 5~ 10
mins passed and she told the black woman on
the line that i got caucassians (gentiles) fucked
up. so after hering that statement i tells the black
woman that i beat on caucassions (gentiles). So
then she left the line. Im a Muslim & my religion
come before anything!
(Errors in original).

'114 After he left work, Nolen went back to his apartment
where he retrieved a butcher knife. He returned to Vaughn
Foods around 4:00 p.m. with the knife concealed in his
boot. Although he no longer was authorized to enter, he
gained access to the building by going inside through a
door as another employee was leaving. Nolen went to the
administrative area of the building where Colleen Hufford
had stepped into Gary Hazelrigg's office to discuss a purchase
order. As Hazelrigg glanced down to look at the document, he
noticed movement in his peripheral vision. When Hazelrigg
looked up, he saw Nolen grabbing Hufford from behind.
~5

Nolen pinned Hufford's head to his body by putting his left
forearm across her forehead, fully exposing her neck. Nolen

WESTLAW © 2021 Ttwrriso,' Reuters No clai:"' to or·gina. U.S. Governme·1t Works.

8

Nolen v. State, 485 P.3d 829 (2021)

2021 OKCR5

held a knife in his right hand, which he drew across her throat
inflicting a deep wound. As Hazelrigg rose from his chair
to help Hufford, Nolen spun her around and pushed her out
into an open area. When Hufford was on her back on the
floor, Nolen straddled her and continued cutting her throat.
Hazelrigg started screaming and trying unsuccessfully to pull
Nolen off Hufford. Another employee, Sam Thunnan, came
upon the assault, ran toward Nolen, hit him, and tried to get
him off Hufford. This was not successful; Nolen was not fazed
and did not stop cutting Hufford's neck. Thunnan left the area
and yelled for help. He called 911 and then slarted telling
people to leave.
i!6 Mark Vanderpool and Bryan Aylor were outside the
building when they heard someone screaming for help
and saying that someone was "cutting Colleen." They ran
back into the building and came upon Nolen who was
on the floor beside Hufford still cutting her neck with a
knife. Hazelrigg was trying unsuccessfully to pull Nolen off
Hufford. Vanderpool kicked Nolen under the chin as hard as
he could with steel-toe boots. Nolen fell back slightly and
then slashed toward Vanderpool with the knife. Vanderpool
and two other employees ran from the area. Nolen stood up
and Aylor grabbed his wrist. Aylor pushed Nolen up against
a doorway but Nolen overpowered him causing Aylor to fall
on his back to the floor. Aylor held Nolen's wrist and kicked
at Nolen as Nolen tried to force the knife down to stab Aylor.
Finally, Nolen just stood up and ran back to Hufford. Aylor
jumped up and ran from the building.
17 When Nolen was interacting wilh the others, Hazelrigg
made a quick phone call to 911. While Hazelrigg was on the
phone, Nolen returned and continued to slice Hufford's neck
with his knife. After Hufford's head was completely detached
from her body, Nolen stood up and approached Hazelrigg
before he became distracted and left the area.
18 Traci Johnson had just changed her clothes preparing to go
home when she stepped out of the locker room and saw Nolen
in the hall close to the administrative *836 offices. She froze
and was unable to move when she saw the bloody knife in his
hand. Nolen rushed toward her and pushed her up against a
wall. He held her with his foreann and started slicing her neck.
Johnson tried pushing him away as she screamed for help.
19 As this was happening, Mark Vaughn, the chief operating
officer of Vaughn Foods, who was aware of the situation
and had retrieved an AR-15 from his vehicle, arrived at the
hallway where the assault was occurring. Vaughn yelled at

Nolen to stop. Nolen stopped and took a few steps toward
Vaughn before turning around as if to run back to Johnson.
Vaughn moved eight to ten feet closer to Nolen and as he did,
Nolen turned and started running toward Vaughn holding the
bloody knife over his head. When Nolen was about fifteen
feet from him, Vaughn yelled at Nolen to stop and then fired
three rounds at him in rapid succession. Nolen did not fall but
leaned against the wall of the hallway and lowered himself to
the ground still clutching the knife. Nolen had been hit by the
gunshots and was in obvious distress. The police and EMTs
arrived shortly and transported Nolen to the hospital. Johnson
was also treated by the medics and taken to the hospital for
wounds to her neck. She subsequently had surgery lo repair
damaged veins in her neck.
1110 Nolen was interviewed at the hospital that same day
by two Moore Police detectives and two FBI agents. Nolen
advised them that he was a Muslim and that he had beheaded
someone because he felt oppressed. Nolen explained that he
worked at Vaughn Foods and a woman with whom he was
working called him an immature brat and criticized the way
he was doing his job. The woman got him into trouble and he
was sent to Human Resources where he was told to go home
for a couple of days. At home he retrieved a knife which he
took back to work. When he went back into the building he
assaulted the first woman and cut off her head because he felt
oppressed. He explained that this was condoned by the Koran
and that he intended to cut her head all the way off. The other
woman he assaulted was the one who had disrespected him
by calling him an immature brat.
1111 Nolen was interviewed a second time a few days later
on September 28, 2014. His account of what happened was
substantially the same in the second interview. Nolen added,
however, that he told the woman who called him an immature
brat that he "beat on Caucasians." Nolen explained that up
until the day of the assaults he had worked at Vaughn Foods
for two years without incident; he went to work on time, had
only missed one day, he prayed five times a day, did not steal,
and had not fought with anyone. When he was pulled from
the line and sent to Human Resources he felt discriminated
against and oppressed. Nolen stated in the interview that he
did not regret what he had done because it would probably
make Vaughn Foods a better place for Muslims to work at in
the future.
1112 Prior to trial Nolen sought to enter a guilty plea and
indicated that he wanted the death penalty. Defense counsel
argued that Nolen was not competent to enter a plea first

WESTLAW fl 202 1 Thomson Reuters. Noc ci m to 0~1g111al J.S Goverr1inert Works

9

Nolen v. State, 485 P.3d 829 (2021)
2021OKCR5
based upon intellectual disability and then based upon mental
illness. Extensive competency hearings were held on both of
these issues. While the trial court found that Nolen was not
precluded from entering a guilty plea based upon intellectual
disability or mental illness, by the time these issues had
been litigated, Nolen was no longer speaking to defense
counsel or the trial court. Although the trial court gave Nolen
the opportunity to plead guilty prior to voir dire, Nolen sat
mute with his fingers over his ears and did not respond.
Accordingly, the defense entered a plea ofnot guilty by reason
of insanity and the case proceeded to jury trial.

Subsequently, the term "intellectual disability" has
largely superseded the term "mental retardation" in
both Oklahoma and federal case law. As no other
amendments were made to Section 70 I. I Ob since
its enactment, this opinion will cite to the amended
statute and use the term "intellectual disability"
instead of "mental retardation" where appropriate.
[41
fS] ,15 While the United States Supreme Court held
that the Constitution prohibits the execution of intellectually
disabled offenders, it left "the task of developing appropriate
ways to enforce the constitutional restriction" to the States.
Atkins. 536 U.S. at 317, 122 S.Ct. 2242 (quoting

I. Ineligibility for Death Penalty
~ 13 The

United States Supreme Court has held that the Eighth
Amendment prohibits the execution of intellectually disabled
offenders.
Atkins 1: Virginia, 536 U.S. 304, 321, 122 S.Ct.
2242, 153 L. Ed .2d 335 (2002). The issue ofNolen's alleged
intellectual disability was raised below and an
Atkins trial
was held during which the jury heard testimony for five

0 Ford 1•. Wainwright. 477 U.S. 399, 416-17, 106 S.Ct.
2595, 91 L.Ed.2d 335 (1986)) (internal quotations omitted).
The Supreme Court noted subsequently that this discretion is
not without limitations.

Halli: Florida, 572 U.S. 701, 719,

134 S.ct. 1986, 188 L.Ed.2d 1007 (2014)(" Atkins did not
give the States unfettered discretion to define the full scope
of the constitutional protection"). Rather, determinations
regarding claims of intellectual disability must be informed

days. At the conclusion of the
Atkins trial, the jury found
that Nolen was not intellectually disabled. Nolen argues that
*837 this verdict was not supported by the evidence and that
his death sentence must be vacated or modified.

by the "views of medical experts."
Id. at 721, 134 S.Ct.
1986 ("It is the Court's duty to interpret the Constitution,
but it need not do so in isolation. The legal determination
of intellectual disability is distinct from a medical diagnosis,
but it is informed by the medical community's diagnostic
111
121
13] ,14 The determination of whether a person is framework."). States may not adopt factors that reflect
intellectually disabled is a question of fact and on appellate
superseded medical standards or that substantially deviate
review, this Court gives great deference to the jury's finding.
from prevailing clinical standards.
Moore v. Texas, 581
Lumbert ''· Stare. 2005 OK CR 26, ~ 12, 126 P.3d 646,
U.S. . 137 S.Ct. 1039, 1049, 197 L.Ed.2d 416 (2017)
653. This Court will not disturb the jury's verdict where "there
(while states have discretion in determining whether a
is any competent evidence reasonably tending to support
defendant is ineligible for the death penalty due to intellectual
it." Howell 1: State, 2006 OK CR 28, , 41, 138 P.3d 549,
disability they may not disregard current medical standards).
562. When the defendant challenges the sufficiency of the
evidence following a jury finding that he is not intellectually
,16 Oklahoma statutes addressing intellectual disability
disabled, "this Court will review the evidence in a light most
for purposes of the death penalty align with the federal
favorable to the State to determine if any rational trier of fact
constitutional requirements and specifically provide that, "no
could have reached the same conclusion." Id. See also 21
defendant who is intellectually disabled shall be sentenced
6
to death." 21 O.S.Supp.2019, § 701.!0b(B). A defendant
O.S.Supp.2019, § 701.!0b ([).
seeking to avoid eligibility for imposition of the death
penalty based upon intellectual disability must demonstrate:
6
When 21 O.S. 701.lOb was enacted in 2006
(I) significantly subaverage general intellectual functioning;
the statute used the term "mental retardation"
(2) concurrent significant limitations in adaptive functioning;
throughout. Section 70 I. I Ob has been amended
and (3) manifestation of the intellectual disability before
just once since its enactment. In 2019, the
age eighteen. 21 0.S.Supp.2019, § 70 I. I Ob{C). Where the
legislature changed the term "mental retardation"
issue of intellectual disability is considered and answered by
to "intellectual disability" to reflect contemporary
the jury, "[t]he defendant has the burden of production and
use of terms within the medical community.

WESTLAW © 2021

~homson

ReL.ters. No cla•M to original U S. Government \/l/orks

10

Nolen v. State, 485 P.3d 829 (2021)
2021OK CR5

persuasion to demonstrate an intellectual disability to the jury
by a preponderance of the evidence." 21 O.S.Supp.2019, §
70 l. l Ob(F).

administered to Nolen by a licensed psychiatrist or
psychologist.

8

1(17 We address each of the three required determinations in
tum.

Significantly Subaverage General Intellectual
Functioning
1(18 Title 21 O.S.Supp.2019, § 701.IOb(C) provides that
"[a]n intelligence quotient of seventy (70) or below
on an individually administered, scientifically recognized
standardized intelligence quotient test administered by
a licensed psychiatrist or psychologist is evidence of
significantly subaverage general intellectual functioning .... "
*838 ~19 Additionally, Section 701.IOb(C) explicitly
directs courts that "(i)n determining the intelligence quotient,
the standard measurement of error for the test administrated
shall be taken into account."
~20

In May and June of 2015, Dr. Jeanne Russell, a
licensed psychologist, administered to Nolen, individually,

an intelligence quotient test. 7 Dr. Russell testified that she
first administered a screening test commonly used within the
psychological community - the Wechsler Abbreviated Scale
offntelligence n (WAST-Ir). Based upon Nolen's score on the
screening test, Dr. Russell determined a need to administer
a full test. She administered the Wechsler Adult Intelligence
Scale, Fourth Edition IQ test (WAIS-IV). Because she had
administered the screening test so recently, Dr. Russell was
concerned about the "practice effect" artificially inflating the
test results. 8 To remedy this potential problem, Dr. Russell
used both the WASI-II and the WAIS-IV, omitting from
the full test portions that she administered in the screening
test. She testified that she "followed the directions that were
published and took out some of the same tests that [she] had
already done and plugged them into the places where [she]
would have done similar tests, so [she] used that score." The
final score was a 69. Dr. Russell testified that this score placed
Nolen into the "mild range of intellectual disability" even
given the standard error of measurement of plus or minus
five points which would have placed his score in the range
of64-74.

7

The record reflects that this was the only
known individually administered, scientifically
recognized standardized intelligence quotient test

The "practice effect" in neuropsychological testing
occurs "whereby individuals who are tested twice
in a relatively short period of time will show
artificially inflated scores the second time, due to
the effects of prior experience and practice with the
test stimuli." United Stales"· Fields, 949 F.3d 1240,
1258 {10th Cir. 2019).

~21

Dr. Daniel Reschly, a self-described specialist in
intellectual disability with a Ph.D. in school psychology,
also testified for the defense. Dr. Reschly noted that to his
knowledge the IQ test administered by Dr. Russell was "the
only individually administered intelligence test that was a
good test administered to Mr. Nolen." Dr. Reschly testified
that in administering the test, Dr. Russell followed the
publisher's procedures and that it was common to administer
a screening test first and follow it with a more in-depth
measure. When asked whether No\en's effort in taking the test
could have affected the score, Dr. Reschly testified that the
test given by Dr. Russell contained an embedded measure of
effort internal to the test; the WAIS-IV contains the Reliable
Digit Span. Dr. Reschly testified that the test given to Nolen
indicated that he gave strong effort in taking the test. Dr.
Reschly concluded that Nolen's test score met the criteria of
having a low IQ in the range associated with mild intellectual
disability.
~22 The State countered the testimony of the defense
expert witnesses with the testimony of Dr. Jarrod Steffan, a
psychologist whose practice involves the routine performance
of intelligence testing. Dr. Steffan questioned the accuracy
of Dr. Russell's test results and the validity of the IQ test.
He testified that he found problems with both Dr. Russell's
administration of the IQ test and with her scoring of the test.
Additionally, Dr. Steffan questioned the effort Nolen put forth
in taking the IQ test.
~23 Dr. Steffan questioned Dr. Russell's method of deriving
the final test score from a combination of screening subtests
and test subtests. He testified that he would never give a
screening test in a high stakes case like a death penalty case,
although he acknowledged on cross-examination that there
was a very high correlation rate between the WASl-11 and the
WAIS-IV.
~24 Dr. Steffan also expressed concern that Dr. Russell did
not properly follow the "discontinue rule" in administering

WESTLAW © 2021 Thomson Reuters. No claim to original J S Governmert Works.

11

Nolen v. State, 485 P.3d 829 (2021)

2021OKCR5

two of the screening subtests. Dr. Steffan explained that under
the "discontinue rule" ifa person misses a certain number of
items consecutively they are considered to have maxed out
on how well they will do on that subtest, so the administrator
moves on to the next subtest. He opined on direct examination
that this failure to follow the protocol "may not be *839
important in the grand scheme of things, but you simply don't
know." He agreed on cross-examination that it was unlikely
that compliance with the "discontinue rule" would have raised
Nolen's score above a 75.
25 Dr. Steffan also noted that there were two different
scoring documents for a single subtest; one was scored 18 and
one was scored 20. However, he acknowledged that the score
given to him and used by Dr. Russell in calculating the IQ test
results was the higher score even though both gave the same
skilled score and made no difference in the final computation.
126 Dr. Steffan also testified about the errors he found in
the calculation of scores on one of the subtests. One of these
errors had no impact and did not change the final score. The
other error did impact the final test score and correcting this
error changed the score from a 69 to a 70.
'\J27 When addressing his concerns about the measurement of
effort that Nolen put into taking the test, Dr. Steffan testified
that the research findings regarding the embedded Reliable
Digit Span are mixed on whether it is a decent predictor of
a person's actual effort. Dr. Steffan testified that the research
suggests that a stand-alone or other measure of effort should
be used to compensate for the limitations of the Reliable Digit
Span.
,28 Dr. Steffan concluded that the numerous errors in the
administration and scoring of the IQ test showed carelessness
that undermined his confidence in the test results. He testified
that because the test was improperly administered and scored,
the IQ test was invalid. Although Dr. Steffan challenged the
accuracy of the IQ test administered by Dr. Russell, he could
provide no contradictory results.
,29 That IQ tests are imprecise measurements of intellectual
disability is well established. The United States Supreme
Court noted that many factors affect an individual's IQ test
score including, "the test-taker's health; practice from earlier
tests; the environment or location of the test; the examiner's
demeanor; the subjective judgment involved in scoring
certain questions on the exam; and simple lucky guessing."

'

Hall, 572 U.S. at 713. 134 S.ct. 1986 (citing American

Association on Intellectual and Developmental Disabilities,
R. Schalock et al. , User's Guide To Accompany the 11th
Edition of Intellectual Disability: Definition, Classification,
and Systems of Supports 22 (2012) (AAIDD-11 ); A.
Kaufman, IQ Testing I 0 I, pp. 138-139 (2009)). The Supreme
Court also recognized the tests themselves may be flawed
or administered in a flawed manner.
1986.

Id. at 714, 134 S.Ct.

(61 ,30 Despite their inherent fallibility, IQ tests are not
determined, out of hand, to be invalid. Rather, to offset the
fallibility of these tests, "[t]he professionals who design,
administer, and interpret IQ tests have agreed, for years now,
that IQ test scores should be read not as a single fixed number

but as a range."
Id. at 712, 134 S.ct. 1986. Accordingly,
courts must take into account the test's "standard error of
measurement" which "is generally thought to involve an error
of measurement of approximately five points; hence, an IQ
of 70 is considered to represent a band or zone of 65 to
75."
Id. at 720, 134 S.Ct. 1986 (quoting Diagnostic and
Statistical Manual of Mental Disorders 28 (rev. 3d ed. 1987)).
See also 21 O.S.Supp.2019, § 701.lOb(C) ("In determining
the intelligence quotient, the standard measurement of error
for the test administered shall be taken into account.").
~31

As noted above, Nolen's IQ test score - even as
corrected by Dr. Steffan - adjusted for the standard error of
measurement yields a range of 65 to 75. Because the lower
end ofNolen's score range falls at or below 70, which is within
the range required to demonstrate significantly subaverage
intellectual functioning, we move on to consider Nolen's
(7]

adaptive functioning.
Hall, 572 U.S. at 723, 134 S.Ct. 1986
("[W]hen a defendant's IQ test score falls within the test's
acknowledged and inherent margin of error, the defendant
must be able to present additional evidence of intellectual
disability, including testimony regarding adaptive deficits.").

See also

Moore, 581 U.S. at - -, 137 S.Ct. at 1050

("[I]n line with
Hall, we require that courts continue the
inquiry and consider other evidence of intellectual disability
where an individual's IQ score, adjusted for the test's *840
standard error, falls within the clinically established range for
intellectual-functioning deficits.").

Significant Limitations in Adaptive Functioning
iJ32 Next, Nolen was required to demonstrate he suffers
significant limitations in adaptive functioning. Title 21

WESTLAW © 2021 Thomson Reuters No claim to or•g1ria U.S Governr e'lt Works.

12

Nolen v. State, 485 P.3d 829 (2021)

2021OKCR5

O.S.Supp.2019, § 701.10b(A)(2) provides that" '(s]ignificant
limitations in adaptive functioning' means significant
limitations in two or more of the following adaptive skill
areas: communication, self-care, home living, social skills,
community use, self-direction, health, safety, functional
academics, leisure skills and work skills .... "Nolen argues on
appeal that he made the requisite showing.
(81 ~33 As with an evaluation of general intellectual

functioning, a determination of deficits in adaptive
functioning must be informed by the medical community's
diagnostic framework.
Moore, 581 U.S. at - -, 13 7
S.Ct. at 1050. Furthermore, "the medical community focuses
the adaptive-functioning inquiry on adaptive deficits."
Id.
(emphasis in original) (citing AAIDD-11, at 47 ("significant
limitations in conceptual, social, or practical adaptive skills
[are] not outweighed by the potential strengths in some
adaptive skills")). See also
Bnm1/ield v. Cain. 576
U.S. 305, 320, 135 S.ct. 2269. 192 L.Ed.2d 356 (2015)
("(l]ntellectually disabled persons may have 'strengths in
social or physical capabilities, strengths in some adaptive
skill areas, or strengths in one aspect of an adaptive
skill in which they otherwise show an overall limitation.'
" (quoting American Association of Mental Retardation,
Mental Retardation: Definition, Classification, and Systems
of Supports 8 (10th ed. 2002))). Accordingly, in order to
avoid overemphasis of adaptive strengths and lay stereotypes,
our review focuses primarily, but not exclusively, on the
expert testimony regarding Nolen's adaptive functioning
deficits rather than on lay testimony about Nolen's adaptive
strengths. 9
9

To the extent that expert witnesses relied upon
information from lay persons in reaching their
conclusions about Nolen's adaptive deficits, we
allow consideration of lay witness testimony
contradictory to the information relied upon by the
expert witnesses.

~34

Nolen presented evidence of his adaptive functioning
deficits through the testimony of two experts. His first
expert, Dr. Russell testified that she assessed Nolen's adaptive
functioning capacities after administering the Vineland
Adaptive Behavior Scales II (Vineland II) assessment. In
order to complete the Vineland II assessment Dr. Russell
reviewed Nolen's school records, spoke with Nolen, who she
believed was not forthcoming, and interviewed his sister,
Paige Nolen. Dr. Russell testified on direct examination,

without much explanation, that based upon her conversations
with Paige Nolen, she found that Nolen had significant
adaptive functioning deficits in the areas of self-care,
social skills, self-direction, health and safety, and functional
academics.
35 Defense expert witness Dr. Reschly testified in more
detail. He explained that current criteria for intellectual
disability are established by the American Association on
Intellectual and Developmental Disabilities (AAIDD) and the
American Psychiatric Association's Diagnostic and Statistical
Manual of Mental Disorders Fifth Edition (DSM-5). He
testified that the skill areas listed in Section 701.10b(A)(2)
mirror the 1992 AAIDD classification manual. However,
based upon adaptive behavior research, the 2002 AAIDD
classification manual changed the categories into three,
broader domains ofadaptive behavior: conceptual, social, and
practical. Dr. Reschly testified that despite this organizational
change, the skills listed in the Oklahoma statute are
encompassed within the three modem domains of adaptive
behavior.
136 Dr. Reschly testified that the conceptual domain includes
the use of language and literacy skills as well as the
understanding and use of numbers relating to money and
time. The social domain, he explained, has to do with social
responsibility, getting along with others, following rules, and
the degree to which one is gullible or easily tricked or cheated.
Dr. Reschly testified that the practical domain encompasses
basic self-care skills as well as more complex skills such
as work, handling money, protecting one's health and safety,
transportation, and use of *841 technology. Dr. Reschly
testified that he looked at a wide variety of information in
forming an opinion about Nolen's adaptive behavior and he
gave detailed testimony about the basis for his conclusions.
'IJ37 Dr. Reschly concluded that Nolen has significant deficits
in some areas covered by the conceptual domain based upon
his review of school records and interviews with people who
knew Nolen during his years in school. Paige Nolen told
Dr. Reschly that Nolen had difficulties with reading and
language and that Nolen was retained in first grade because he
had difficulty with reading and basic arithmetic. Dr. Reschly
testified that although Nolen scored in the 60th percentile his
second year of first grade, his scores on the Iowa Test ofBasic
Skills declined as he advanced through school.
'IJ38 Dr. Reschly learned from both Paige Nolen and some of
Nolen's classmates that they believed Nolen was in special

WESTLAW © 2021 Thomson Reuters No claim to original U S Government Works

13

Nolen v. State, 485 P.3d 829 (2021)
2021 OK CR 5

public schools for thirty-five years. She testified
that when Nolen went to high school a student
could not be in special education and attend the
classes at Booker T. Washington; there was a
different curriculum for special education students.

education classes in middle school and high school. IO Dr.
Reschly agreed on cross examination, however, that while he
believed it likely that Nolen was in special education prior to
high school, nobody in the school system said that Nolen was
in special education classes at any time - elementary school,
middle school, or high school. 11
10

II

This information conflicted with evidence that
Nolen denied being in special education classes and
trial testimony of other school friends who did not
believe that Nolen was in special education classes.
Dr. Reschly agreed that Nolen's high school
counselor testified that no records came from his
middle school indicating that he had been in special
education classes. When asked whether he gave
more credence to the testimony of students than to
the testimony of a school counselor, Dr. Reschly
declined to answer but he agreed that the evidence
was inconsistent.

"fJO After high school Nolen attended Carl Albert and
.
. I)
L angston U mvers1ty.
Nolen took developmental classes
at Carl Albert to help him overcome deficits in academic
skills. Nolen's grades were mostly Ds and Fs in these classes
although while al Langston University he received an A in
a psychology class and an A in an academic achievement
seminar.
13

score in the I st percentile. When he took the
ACT his senior year he did not fare much better
scoring a 12 wh ich is in the 4th percentile. At the
time of Nolen's admission into these schools, both
required applicants take the ACT but each had open
admissions policies allowing students' admission
regardless of their ACT scores.

_,;39 The pattern of declining achievement continued and in
high school Nolen did poorly, generally receiving failing or
near failing grades. He was in a credit recovery curriculum at
Booker T. Washington Academy his IO th through 12th years
of high school. Dr. Reschly testified that in his experience, the
life skills curriculum teaches practical skills to people with
mild intellectual disability. 12 While Dr. Reschly testified that
the classes Nolen took at Booker T. Washington were the
type of life skills courses often used by persons with mild
intellectual disability, he acknowledged that these classes
served the additional purpose of credit recovery. Dr. Reschly
also acknowledged that in addition to four life skills classes,
Nolen took English II, English III, AP math I, AP math II,
world history, and government while at Booker T. Washington
his junior year. He took fine arts, math of fin., auto I, earth
science, English IV, and track his senior year. None of these
classes were noted to be life skills classes. Nolen graduated
from high school with a 2.09 GPA.
12

Doug Brown, the Superintendent at Idabel Public
Schools, testified that the program at Booker T.
Washington attended by Nolen was not special
education; part of the curriculum at Booker T.
Washington included life skills but it was not
necessarily for intellectually disabled students.
Barbara Johnson, the current principal at Idabel
High School testified that she has been at Idabel

Nolen took the ACT in tenth grade and scored
a 9 which, Reschly testified, was a very low

I Dr. Reschly also concluded that as a child, adolescent, and
adult Nolen had significant deficits in some of the adaptive
skill areas within the social domain. Dr. Reschly spoke with
Nolen's natural father, who said that Nolen had very poor
decision-making skills and that he was easily exploited.
Additionally, *842 Dr. Reschly testified that others who
knew Nolen well told him that Nolen had difficulty reading
people and understanding appropriate social behaviors. Two
of his childhood friends from football told Dr. Reschly that
when they went to parties, Nolen would not interact with
others; he would sit in the car and not participate. Some school
peers relayed to Dr. Reschly that Nolen was frequently unable
to follow conversations. 14 Although Nolen was a football
player and understood when a game was coming up, he would
not know who the opposing team was. He was described by
family and peers as someone who was gullible and easily
influenced by others; kids would ask him for money and he
would give it to them. 15

14

In contrast, one of Nolan's peers, Brandon Hunter,
testified that he remembered Nolen from sixth
grade and high school. Hunter did not recall having
any problems communicating with Nolen. In high
school Hunter would pick Nolen up in the summer
and they would go to a gym to work out together.

WESTLAW © 2021 Ti'omson Reuters No cla1'n to orig nc1I US. Go•1ernment lf'/orks

14

Nolen v. State, 485 P.3d 829 (2021)

2021OKCR5

15

They would talk about what was going on; Nolen
participated in conversations.

some weaknesses in the area of practical skills domain, his
deficits were not significant limitations.

Conversely, Doug Brown testified that Nolen was
well liked and respected by his peers. If there was
a fight or altercation in the locker room, Nolen
typically tried to break it up.

1144 In conclusion, Dr. Reschly testified that Nolen's deficits
in the modem category of conceptual domain equates to a
finding of significant limitations in the adaptive skill areas
of communication and functional academics under Section
70 I.I Ob(A)(2). His deficits in the modem category of social
domain equates to a finding of significant limitations in the
adaptive skill areas of social skills and leisure skills under
Section 701.10b(A)(2). Finally, he concluded that Nolen had
no significant limitations in the modem category of practical
domain.

~42 Dr. Reschly testified that Paige Nolen told him that as an
adult, Nolen did not have many friends and did not go out or

interact with others; he was not socially connected. 16 While
Nolen was socially active on Facebook, his interactions there
were sometimes socially inappropriate; he contacted women
he had never met and asked if they would marry him and
bring a dowry to the marriage. Additionally, Dr. Reschly said
that Nolen's language and intellectual processing limitations
hindered his social problem solving abilities at work. 17 On
cross-examination, however, Dr. Reschly acknowledged that
there was evidence that Nolen participated in social networks
by going to the mosque on a semiregular basis. Despite his
testimony that social behaviors may impede a person's ability
to keep a job, Dr. Reschly acknowledged that prior to his
commission of the crimes in this case, Nolen kept his job at
Vaughn Foods for over a year.
16

17

~43

In contrast, Crystal Brown testified that she was
a hair stylist who came to know Nolen because
she cut his hair. After a while, they became friends
and had a close relationship for about two months.
Ms. Brown testified that she had conversations with
Nolen and she understood what he was saying.
When she conversed with him, Ms. Brown felt
like Nolen was "very straightforward, serious. 1felt
like he was pretty mtelligent." She clarified that he
was not "college-level type intelligent" but he "just
knew how to get things done and take care - take
care ofhisself [sic]."
He was, however, able to research his religious
rights and communicate to numan resources nis
desire to get time off to pray wnile at work.

Dr. Reschly testified that in the practical domain, Nolen
displayed no significant deficiencies. Dr. Reschly found that
Nolen met the basic expectations regarding the activities
of daily living; he practiced self-care, lived independently
and maintained his household, drove, held a job, and used
technology. Dr. Reschly testified, however, that the ability
to perform these functions neither proves nor disproves
intellectual disability. While Dr. Reschly noted that Nolen had

1145 The State's expert witness, Dr. Steffan, disagreed with the
conclusions reached by the defense expert witnesses finding
flaws in their assessment and reaching different conclusions
based upon much of the same evidence. Dr. Steffan agreed
that the Vineland II test administered by Dr. Russell is
an acceptable test to assess adaptive function. He did not,
however, agree with the conclusion *843 reached by Dr.
Russell and Dr. Reschly that based upon the administration of
this test, Nolen had significant deficits in two or more of the
adaptive skill areas listed in Section 701.10b(A)(2).
1146 Dr. Steffan testified that the Vineland If test results are
only as reliable as the reporting upon which the test results
are based. He testified that the person providing information
for the Vineland II test should be "a person who knows the
person well, who has known the person well over a long
period of time, and who has known the person well in the
recent past. A person who has frequent or regular contact with
the individual."
~47

Dr. Steffan was concerned that Paige Nolen was a biased
reporter to Dr. Russell and that she did not possess a solid
basis of knowledge regarding Nolen's adaptive skills. For
instance, Dr. Russell testified that she relied upon Paige Nolen
to conduct the Vineland II test because she was the only family
member who would talk to her and because Nolen lived with
her when they were children and when he got out of prison.
However, as Dr. Steffan noted, other evidence showed that
Paige Nolen had a limited basis of knowledge; she testified
at trial that she lived with Nolen only part of the time when
they were in elementary and middle school although they
lived together during high school. Then Nolen lived with her
for a short time after he got out of prison the first time; he
moved out to move in with a girlfriend. Later, after he got
out of prison the second time, he lived with her for three

WESTLAW © 2021 ~'10111son Reuters. No claim to original U.S Governr·e•1t Works

'5

Nolen v. State, 485 P.3d 829 (2021)
2021

OK-CR 5

----------------

months before he moved into his own apartment. After he
moved into his own apartment, Paige Nolen only visited him
there once. Dr. Steffan testified that this sporadic contact gave
Paige Nolen only a limited basis of knowledge allowing her
to provide "probably unreliable information."
~48 Dr. Steffan disagreed with Dr. Russell's and Dr. Reschly's
conclusions about Nolen's skills in the area of functional
academics. He noted that Dr. Russell estimated Nolen's
reading ability to be at the fourth grade level. Dr. Steffan
testified that people generally do not know the level ofreading
associated with the different grades indicating that one could

not put much slock in Paige Nolen's reported estimate of
Nolen's reading level. He testified that the average reading
level in the United States is sixth grade, which is precisely the
level at which Nolen scored when he took an the Test of Adull
Basic Education (TABE) administered by the Department of
Corrections when he went into prison at the age of twentyseven. 18

18

That Nolen is an average reader was corroborated
by Paige Nolen at trial when she testified that
while Nolen did not like to read aloud and would
sometimes stutter, he seemed to be an "ok" reader.

~49

Dr. Steffan also noted that on the TABE Nolen scored

in the 19 th percentile in mathematic computations and 45 th
percentile in applied mathematics making his total math score
in the 32 nd percentile. While low, Dr. Steffan testified that
this score placed Nolen within the average range. Finally,
Dr. Steffan noted that Nolen scored in the 85 th percentile
in language on the TABE placing his cumulative score at
the 58 th percentile, within the average range. Dr. Steffan
acknowledged the differences between Nolen's test scores on
the IQ test, the Vineland II, and TABE, noting that the higher
scores would be a result of best effort because "you can't fake
having better intelligence" but one can put forth less effort to
produce a lower test score.
~50

Dr. Steffan also disagreed with Dr. Reschly's conclusions
about Nolen's communication skills. He referenced a letter
purportedly handwritten by Nolen while in prison to the
director of the Department of Corrections. Dr. Steffan
testified that the letter included identification, an introduction,
persuasive argument, and concluded with well wishes for the
recipient. Dr. Steffan acknowledged that the letter had some
grammatical and typographical errors but the senlences were
complete. Dr. Steffan also noted that he reviewed Facebook

posts made by Nolen and while these were less formal,
Nolen expressed understandable points and wrote in complete
sentences. 19

19

That Nolen was able to write and express himself
coherently is also shown by State's exhibit 225, his
handwrilten statement about the verbal altercation
he had with Traci Johnson at Vaughn Foods before
he was suspended.

*844
51 While Dr. Steffan specifically found no
significant deficiencies in Nolen's functional academic and
communication skills, he did not disregard that Nolen has
some adaptive functioning deficits in the way he deals
with his life. Dr. Steffan diagnosed Nolen with unspecified
personality disorder with antisocial traits and attributed his
adaptive functioning issues to the personality disorder. In
conclusion, however, Dr. Steffan testified that he was unable
to find any significant deficits in adaptive functioning due to
intellectual disability.
52 As noted above, the opinions of the three experts about
Nolen's limitations in adaptive functioning varied greatly.
The defense experts only agreed with each other that Nolen
suffered significant limitations in the two areas of functional
academics and social skills. While each of them found
significant limitations in other adaptive skill areas, they did
not agree with each other about these; Dr. Russell found
significant limitations in the skill areas of self-care, selfdirection, and health and safety while Dr. Reschly found
significant limitations in the skill areas of communication and
20

leisure skills.
In contrast, while Dr. Steffan acknowledged
that Nolen had some adaptive functioning deficits, he did not
find any of these to be significant.
20

[9]

Dr. Russell testified that Nolen's skills in the area
of expressive communication were "an issue" but
she did not state that he had significant limitations
in this adaptive skill area.
~53

With the exception of Dr. Russell who largely

gave conclusory opinions without detailed explanation, Dr.
Reschly and Dr. Steffan spoke to the evidence and explained
their conclusions. Both indicated that their conclusions
were informed by the Vineland II administered by Dr.
Russell, interviews with Nolen, Nolen's known academic
record, and interviews with people who knew Nolen.
They discussed how they reached their conclusions and
the evidence upon which their conclusions were based.

WESTLAW © 2021 Thomson Reuters No clam to orig1n<il US. Governn'ent Works.

16

Nolen v. State, 485 P.3d 829 (2021)

202T OKCR5

Each of the expert witnesses formed their opinions with
regard to established medical practice and current medical
standards. However, their conclusions about Nolen's adaptive
functioning limitations were conflicting. Considering the
testimony of the medical experts and the evidence that either
supported their conclusions or refuted them, without giving
undue emphasis to lay stereotypes or evidence of adaptive
strengths, the jury could have found that Nolen failed to
demonstrate, by a preponderance of the evidence, that he
had significant limitations in two or more of the enumerated
adaptive skills areas.

Manifestation Before the Age of Eighteen
[ IO] ~54 Finally, Nolen was required to show that the onset
of his intellectual disability manifested before he reached the
age of eighteen. 21 O.S.Supp.2019, § 701. !0b(C). He avers
that he has made this showing.
~55

Dr. Russell acknowledged the statutory requirement that
the onset of intellectual disability manifested before the age
of eighteen. She testified that the fact that Nolen was not
administered an IQ assessment before the age of eighteen is
not critical to the issue of age of onset. Dr. Russell noted
Nolen's social deficiencies and his poor grades in elementary
school, high school, and college, and the evidence that his
sister helped him in school. She testified generally and briefly
that his intellectual disability manifested before he reached
the age of eighteen.
~56

Dr. Reschly also testified that intellectual disability may
be determined to have manifested before the age of eighteen
even absent an early IQ test or official diagnosis as a child. He
testified that Nolen's "low performance was certainly noticed
before the age of 18 even though the IQ test - as far as we
know, the only IQ test given to him occurred after he was
age 18 - and that IQ test showed a very low intellectual
functioning."

his grades such as transitions from different schools and
instability at home. Dr. Steffan also noted lhat the only time
he was able to discern that Nolen had academic assistance
was during 1Oth , 11 th , and 12 th grades when he was in
the credit recovery program that "was separate from students
who had intellectual disabilities or learning disorders or
received special education services." Dr. Steffan relied upon
school records, transcripts of testimony from school officials,
educators, family, friends, and Nolen himself to determine
that Nolen was not in special education. He also looked
at Department of Corrections records and tests Nolen took
there which did not indicate onset of intellectual disability
before the age of eighteen. Based upon this evidence, Dr.
Steffan concluded that Nolen did not show noticeable signs
of intellectual disability before the age of eighteen.
'1158 As noted in the discussion above, the testimony by
the expert witnesses with regard to the age of onset of
Nolen's alleged intellectual disability conflicted. The defense
expert witnesses testified that it manifested before the age of
eighteen and the State's witness testified that it did not. The
jury, in finding that Nolen does not suffer from intellectual
disability, apparently reached the same conclusion regarding
the age of onset as the State's expert witness. This conclusion
was not an unreasonable determination of the facts.
~59 The defense bore the burden of production and persuasion

to demonstrate, by a preponderance of the evidence, that
Nolen suffered significantly subaverage general intellectual
functioning contemporaneously with significant limitations
in at least two of the enumerated areas of adaptive functioning
and that this intellectual disability manifested before the age
of eighteen. The evidence, viewed in the light most favorable
to the State, supports the jury's finding that Nolen did not
show, by a preponderance of the evidence, that evidence of
intellectual disability manifested before the age of eighteen.
This proposition is denied.

~57

Finally, Dr. Steffan testified that he considered Nolen's
grade school, middle school, and high school records to
assess whether the onset of intellectual disability manifested
before Nolen reached the age of eighteen. Dr. Steffan found
it significant that in Nolen's testing from grade school, his

scores ranged from the 2 nd percent•·1e to the 99 111 percent'I
1e
on the different areas of academic skills. Dr. Steffan testified
that this showed that Nolen was "doing variably. He *845
did really well in some areas and poorly in other areas."
Dr. Steffan noted that other factors could have affected

WESTLAW © 2021 Thomson Reute-rs.

2. Competency
(11]
[12}
(13) ~60 Nolen complains that he was tried
while incompetent to assist in his own defense, in violation
of his right to due process of law as guaranteed by
Fourteenth Amendment to the United States Constitution. The
constitutional guarantee of due process of law includes the
right to be tried only when one is sufficiently competent to
understand the nature of the charges and to assist counsel in

N~- clcrm io ;,.iginal

J.S Govemmert Wo·ks.

17

Nolen v. State, 485 P.3d 829 (2021)

2021 OK CR 5

preparing a defense.

~\1 Cooper\~

Oklahoma, 517 U.S. 348,

f

354, 116 S.Ct. 1373, 134 L.Ed.2d 498 (1996);
Drope \'.
Missouri, 420 U.S. 162, 171-72. 95 S.Ct. 896, 43 L.Ed.2d
103 ( 1975 ). The standard for competency to stand trial is
"whether [the defendant] has sufficient present ability to
consult with his lawyer with a reasonable degree of rational
understanding - and whether he has a rational as well
as factual understanding of the proceedings against him."
Dusky \'. U11ited States, 362 U.S. 402, 402, 80 S.Ct.
788, 4 L.Ed.2d 824 (1960). Oklahoma has codified these
constitutional requirements. See 22 O.S.2011. § 1175.1 (I)
(a person is competent to stand trial if he has "the present
ability . .. to understand the nature of the charges and
proceedings brought against him or her and to effectively and
rationally assist in his or her defense"). The law presumes
competence, requiring the defendant prove his incompetence

by a preponderance of evidence.

Grant le State, 2009 OK

CR 11, ~ 8, 205 P.3d 1, 8 (citing
Medina v. California, 505
U.S. 437, 452-53, 112 S.Ct. 2572, 120 L.Ed.2d 353 (1992)).

1141 ~61 There are two types of competency claims. "A
procedural competency claim is based upon a trial court's
alleged failure to hold a competency hearing, or an adequate
competency hearing, while a substantive competency claim
is founded on the allegation that an individual was tried and
convicted while, in fact, incompetent." lay v. Royal, 860
F.3d 1307, 1314 (10th Cir. 2017) (quoting
McGregor v.
Gibson, 248 F.3d 946, 952 (10th Cir. 2001 )(en banc)(intemal
quotations omitted)). Nolen makes a substantive competency
claim as he raised the issue early in the prosecution and
he was found not to have proven his incompetency by
a preponderance of the evidence in either of two *846
separate, lengthy hearings, each of which we review in tum.
We review the trial court's finding of competence for an abuse
ofdiscretion.
Gnmt, 2009 OK CR II, ~9, 205 P.3d at 8. An
abuse of discretion is a conclusion or judgment that is "clearly
against the logic and effect of the facts presented." Swte 1:
Hooley, 2012 OK CR 3, ~ 4, 269 P.3d 949, 950.

Competency Related to Intellectual Disability
1151 ~62 On March 25, 2015, defense counsel filed an
application for determination of competency. On this same
date, the district court issued an order for the determination
of competency. The order required that a doctor or doctors
from the Oklahoma Department of Mental Health examine

Nolen and make the following determinations required by 22
O.S.2011, § l l 75.3(E):
I. If the person is able to appreciate the nature of the
charges made against such person;

2. If the person is able to consult with the lawyer and
rationally assist in the preparation of the defense of such
person;
3. If the person is unable to appreciate the nature of the
charges or to consult and rationally assist in the preparation
of the defense, whether the person can attain competency
within a reasonable period of time as defined in Section
1175. l of this title if provided with a course of treatment,
therapy or training;
4. If the person is a person requiring treatment as defined
by ,.. Section 1-103 ofTitle 43A of the Oklahoma Statutes;
5. If the person is incompetent because the person is

intellectually disabled as defined in Section 1408 of Title
10 of the Oklahoma Statutes;
6. If the answers to questions 4 and 5 are no, why the
defendant is incompetent; and
7. If the person were released, whether such person would
presently be dangerous as defined in Section 1175.1 of this
title.
Nolen was examined as ordered and a competency hearing
was held on October 26 and 27 of 2015. This competency
hearing focused on whether Nolen was incompetent to stand
trial due to mild intellectual disability.
~63 The primary witness for the defendant at the competency
hearing was Dr. Jeanne Russell who testified that she
interviewed Nolen a cumulative total of seven hours on
May 28, 2015 and June 30, 2015. During her time with
Nolen, she administered four different tests. She testified
that she administered the FIT-R, a standardized test to
evaluate competency - whether a defendant has a factual
understanding of the proceedings and the ability to assist in
his defense. She concluded from the administration of this test
that Nolen was aware of his arrest and the charges against him
but he was confused about the roles ofthe officers of the court
and he distrusted his attorneys. He wanted the death penalty

and was not willing to participate in his defense. 21

WESTLAW © 2021 Thomson Reuters !'lo claim to orig nal l.J.S. Government Works

18

Nolen v. State, 485 P.3d 829 (2021)
2021OKCR5

21

Dr. Russell acknowledged on cross-examination
that during the administration of the FIT-R, Nolen
denied having any difficulties in communicating
that would interfere with his ability to talk to his
lawyers or to testify in court. He specifically said
that he did not want to testify.

administered in the screening exam to derive the
final IQ score.
23

fi64 Dr. Russell also administered another standardized
competency evaluation, the ECSR-R. During the
administration of this test, Nolen insisted that he wanted the
death penalty and he stated his intent to refuse to work with
his attorneys on a different outcome. He was again unclear
about the roles of the officers of the court.
~65

Similar to her testimony during Nolen's intellectual
disability trial discussed above in Proposition One, Dr.
Russell testified that she administered the WASI-ll, an IQ
screening test, and the WAIS-IV, a full IQ test, and combined
both to determine an overall IQ score of 69. 22 She also
testified *847 that in order to assess Nolen's adaptive
functioning, she administered the Vineland II and reached
her conclusions after speaking with Nolen's sister, Paige
Nolen, and reviewing existing school records. Dr. Russell
testified that Nolen scored low in the three main areas
of communication, daily living skills, and social skills. 23
Dr. Russell noted at this hearing that the most difficult
prong of intellectual disability to diagnose in Nolen's case
is the requirement that the significant limitations in adaptive
functioning manifest before the age of eighteen. She testified
about limitations and behavior observed in Nolen before the
age of eighteen - such as academic performance
but she
did not address this prong in detail.

22

Dr. Russell's testimony about her methodology in
administering the tests and arriving at the IQ score
was more thorough at the competency hearing
than at the
Atkins trial. She explained at the
competency hearing that the WASI-II screening test
has four subtests. Because Nolen score 62 on the
WASl-11, she elected to administer the WAIS-IV
full scale IQ test that included ten subtests. Because
she administered the full scale IQ test only four
weeks after she administered the screening test, she
sought to prevent a false heightened score due to
the ''practice effect" by combining the two tests.
She did not administer subtests in the full scale
IQ test that were like those already administered
in the screening test but rather used the subtests

Dr. Russell acknowledged on cross-examination
that although she scored Nolen a zero in the
adaptive skill area of communication, it was true
that he was able to articulate a successful request
for a religious accommodation at work and he also
submitted an internal job application in writing
outlining his prior experience to request a job
change at work. Interestingly, while Dr. Russell
testified at the competency hearing that Nolen
suffered significant limitations in the adaptive
functioning area of communications, she did not
clearly opine at the
Atkins trial that Nolen
suffered significant limitations in this adaptive
functioning area.

1j66 Dr. Russell concluded her testimony at this competency
hearing by answering the questions required in the district
court's order. With regard to the first two questions she
testified that Nolen understood the charges against him but
was not able to consult with the lawyer and rationally assist
in the preparation of his defense; he was "unable or unwilling
to consult with counsel." She added, "whether he has the
capacity to do so is difficult to say; but, in my opinion, he
lacks the capacity to plan his legal strategies and work with
a lawyer in doing that." She found this, in part, because
of his communication and higher reasoning limitations. She
also based her opinion in part on his refusal to talk about
any defense. Dr. Russell testified in response to question
three that although Nolen's IQ score was low, she believed it
possible that he could attain competency within a reasonable
amount of time. She was not sure that this was possible but
she testified that, "it would be worth a try." With regard
to the fourth question, Dr. Russell testified that Nolen was
not a person requiring treatment as defined by ~ Section
1-103 of Tille 43A because he was not showing symptoms
of psychosis or mental illness requiring hospitalization. In
answer to question five, Dr. Russell testified that Nolen
was incompetent because of major deficits in his intellectual
functioning based upon the results of the IQ tests and the
adaptive functioning test. Question six was inapplicable
because of the answers to questions four and five. Finally, in
answer to question seven, Dr. Russell testified that Nolen was
not presently dangerous as defined in Section 1175.1.
~67

Dr. Shawn Roberson, a forensic psychologist, was the
State's expert witness at the first competency hearing. Dr.

WESTLAW © 2021 fl1or1so 1 Reuters No claim to ongina U.S Government Works.

19

Nolen v. State, 485 P.3d 829 (2021)
2021OKCR5

Roberson testified that he evaluated Nolen on April 6, 2015,
pursuant to the district court's order of March 25, 2015. In
preparing for the evaluation, Dr. Roberson reviewed the case
information. He testified that there was not an extensive
amount of information available in Nolen's case but he noted
that although Nolen had a criminal history with multiple prior
convictions, there were no records indicating that competency
had been an issue in the past. Dr. Roberson also testified that
Nolen was not currently on any medication or receiving any
treatment.
~68 Dr. Roberson interviewed Nolen at the Cleveland County
Detention Center. During the interview Nolen was generally
cooperative but made it clear that he was not happy that
his competency was challenged. From his examination, Dr.
Roberson was able to answer the questions required by the
court's order.

69 In response to the first question, Dr. Roberson testified
that Nolen was able to appreciate the nature of the charges
against him; Nolen knew that he was charged with murder
and assault for beheading a woman at Vaughn Foods and
cutting another woman's throat. In addition to understanding
the *848 crimes charged, Nolen knew that he was facing the
punishment of the death penalty or life in prison.
~70 With regard to the

second question, Dr. Roberson testified
that Nolen was able to consult with his attorneys and
rationally assist in the preparation of a defense. He noted,
however, that while Nolen was able to assist his attorneys,
he was not willing to do so. Dr. Roberson testified that
the issue was whether Nolen had any impairment, mental
illness, cognitive deficit, or other medical condition that
would preclude him from rationally assisting his attorney
or making decisions about how to proceed in the case. He
testified that Nolen's decision-making was not delusional or
the result of a mental impainnent. Dr. Roberson testified that
if Nolen wanted to, he could assist his attorneys as he was able
to articulate circumstances he believed mitigated his case;
he believed he had been mistreated at work. He also could
compose his behavior in court and he knew how he was
expected to act; Nolen told Dr. Roberson that as long as no one
offended him he would act appropriately. Dr. Roberson added
that Nolen acted appropriately throughout the interview.
~71

Dr. Roberson testified that because Nolen was able to
appreciate the nature of the charges and to consult with and
rationally assist in the preparation of a defense, question three
was inapplicable.

~72

With regard to question four, Dr. Roberson testified that
Nolen was not a person requiring treatment as defined by

!" Section l · l 03 of Title 43 as there was no indication that
Nolen had a history of mental health treatment or serious
mental illnesses. Dr. Roberson noted that Nolen denied
having any symptoms associated with serious mental illness
and "didn't exhibit any signs that would be associated with a
severe mental illness that would require his commitment to a
psychiatric facility.''
~73

In response to question five, Dr. Roberson testified that
"there was absolutely no data to suggest that Mr. Nolen had

mental retardation." 24 He added that if he had a concern
about intellectual disability, he would have noted it in his
report and still have found Nolen to be competent because,
"[you] can have mild intellectual [ ] disability and still be
competent."
24

It was clarified that "mental retardation" is now
called "intellectual disability" and Dr. Roberson's
testimony mirrored the statutory definition in
Section 70 1.1 Ob.

74 Finally, Dr. Roberson testified that question six was
inapplicable and, with regard to question seven, he found that
Nolen was not presently dangerous due to mental illness.

175 When asked about the variance between his assessment
and Dr. Russell's, Dr. Roberson questioned Dr. Russell's
administration of tile IQ tests, opining that it was flawed.
He questioned Nolen's effort in taking the IQ test and
he opined that Dr. Russell scored Nolen low because he
provided answers based upon his ideology rather than giving
answers Dr. Russell would have considered appropriate. With
regard to Dr. Russell's conclusions regarding Nolen's adaptive
functioning, Dr. Roberson noted that Dr. Russell derived
the bulk of her information from Nolen's sister who, Dr.
Roberson opined, may not have given accurate information;
the results are "completely dependent upon the accuracy
of the informant." While acknowledging Nolen's largely
poor academic performance, Dr. Roberson noted that Nolen
performed better academically in early elementary schoo1and
that he got a few As in college courses. He testified that one
would not expect an individual functioning as poorly as Dr.
Russell reported to outperform peers to that degree in early
elementary school or to earn an A in a college psychology
course. Dr. Roberson testified that he found no legitimate

WESTLAW © 202' Thomson Reuters. No clam to original U S. Government Works

2'J

Nolen v. State, 485 P.3d 829 (2021)

2021- 0KCR 5

evidence that Nolen was intellectually disabled. Nolen was,
he concluded, competent to stand trial.

competent to enter a plea. The trial court entered a formal plea
ofnot guilty and set the matter for a dispositional hearing.

iJ76 The district court ruled on the competency hearing
in a Summary Order issued on October 28, 2015. The
district court first noted that 22O.S.2011, § 1175.4 presumes
that persons are competent and when a defendant places
his competency in question he has the burden of proving
incompetency by a preponderance of the evidence. The
district court also noted that the only disputed issue
before the court was whether Nolen had *849 presented
sufficient evidence that he was "not competent due to
mental retardation that would prohibit [him] from providing
meaningful assistance in his defense." The district court found
that under the preponderance of the evidence standard, the
defense had shown both an IQ score of seventy or below and
that evidence of sub-average intellectual functioning occurred

26

before the age of eighteen. 25 The district court concluded,
however, that the defense did not show by a preponderance
of the evidence that Nolen "possessed any of the requisite
cognitive/adaptive skill deficits set forth in the statute." The
court concluded that "[b]ased on the totality of the evidence,
it is clear that he does not." The district court concluded
that Nolen did not present evidence meeting the statutory
definition of mental retardation and noted evidence indicating
his understanding of the charges and his ability to assist in his
defense. The district court found that Nolen was competent
to undergo further criminal proceedings in the matter. The
district court's ruling is supported by the record and was not
an abuse of discretion.
25

While the district court's conclusions
the competency hearing regarding when
intellectual disability manifested differs from
conclusions apparently reached by the jury at

at
the
the
the

Atkins trial, the differing conclusions are of no
consequence as different evidence was presented at
each proceeding.

Competency Related to Mental Illness
iJ77 Formal arraignment was held on February II, 2016. At
this proceeding, Nolen was communicative and answered
the questions asked by the trial court. 26 Defense counsel
voiced concern that Nolen did not understand or know of
all of the counts charged so the Information was read aloud.
Nolen denied past mental illness and stated that he understood
the charges and consequences. Nolen expressed an intent to
plead guilty but defense counsel argued that Nolen was not

Many of the answers given by Nolen included
the word "Alhamdulillah'', which Nolen explained,
means "Praise be to Allah in English."

~78 The dispositional hearing was held on August 12, 2016.
The defense called two witnesses to testify at this hearing. The
first witness, Robert Hunt, held a master's degree in theology.
He testified that Nolen's beliefs regarding Islam were not
coherent and rational. The second witness for the defense was
Dr. Antoinette McGarrahan, a psychologist specializing in
forensic psychology and neuropsychology. Dr. McGarrahan
testified that she evaluated Nolen to see if he understood
the nature and consequences of entering a guilty plea. She
spent nine hours with Nolen over two days during which she
administered thirteen tests gauging a range of abilities from
attention and concentration to cognitive control and verbal
fluency. She also tested Nolen for malingering and concluded

that he was not. 27
27

Dr. McGarrahan administered two tests to measure
malingering the DOT Counting Test and
the Digit Span Subtest from the WAIS-IV. She
concluded that Nolen was not malingering because
he had nothing to gain by doing so; he stated that
his goal was to plead guilty and be sentenced to
death and he knew that he would not be able to
do this if he was mentally ill. Dr. McGarrahan
acknowledged on cross-examination, though, that
Nolen had previously taken the TOMM, a test
designed specifically to assess malingering, and
had scored within a range raising concern for
malingering.

iJ79 During the time she spent with Nolen, Dr. McGarrahan
noted that his thought process was rambling and incoherent.
She testified that he was at times internally distracted,
a sign of possible hallucinations. She found him to be
delusional and out of touch with reality, displaying paranoid
beliefs. Dr. McGarrahan testified that Nolen's intellectual
capacity was obscured by mental illness. She concluded that
Nolen suffered unspecified schizophrenia spectrum and other
psychotic disorders that prevented him from having a rational
understanding of the proceedings and being able to rationally
comprehend and appreciate the consequences of his decision
in waiving his rights.

WESTLAW © 2021 Tror1 1son Re..iters No clairP to original U.S Government Works.

21

Nolen v. State, 485 P.3d 829 (2021)
2021OKCR5

1[80 Dr. Shawn Roberson was the State's primary expert
witness at the disposition hearing. Dr. Roberson testified that
in order to assess Nolen's competence as required by the
court, he reviewed Dr. McGarrahan's report, transcripts of
the formal arraignment, *850 and an earlier dispositional
hearing, and he re-examined Nolen at the Cleveland County
Detention Center. Dr. Roberson noted that none of the tests
administered by Dr. McGarrahan were relevant to assessment
of mental illness; they all measured cognilive abilities.
In contrast, Dr. Roberson testified that he administered
the Symptoms Checklist 90-revised (SCL-90-R), a selfreported measure of psychopathology. Based upon this
assessment, Dr. Roberson concluded that Nolen was not
endorsing any significant psychological problems. He also
disagreed with Dr. McGarrahan's conclusion that Nolen was
not malingering giving far more credence to the TOMM
malingering assessment.
1[81 Dr. Roberson testified that his conclusions regarding
the test results were corroborated by his observations during
the clinical interview. Nolen was not symptomatic and
he observed nothing indicative of a thought disorder. Dr.
Roberson testified that Nolen was able to engage in coherent
conversation. Dr. Roberson opined that Nolen was not
delusional, schizophrenic, or even necessarily malingering he was just not cooperating. He concluded, "I do not believe
that he has any severe cognitive disability, and I do not see
any mental illness. I think this is strictly personality and his
volitional choice that he is uncooperative with the Court and
his attorneys."
~82

At the conclusion of the dispositional hearing, on August
17, 2016, the trial court noted that competency is a fluid
issue and prior rulings are not necessarily dispositive of
the current circumstance. The trial court acknowledged the
presumption of competence but also that the court still had
doubts. While the trial court leaned toward the conclusion that
Nolen's decision not to cooperate was volitional, given the
gravity of the proceeding, the trial court declined to accept
Nolen's guilty plea without further inquiry. The proceeding
was stayed pending a competency evaluation and a postevaluation hearing.
~83

The three day competency trial commenced on April 3,
2017. Several witnesses for the defense were individuals who
worked at the Oklahoma Forensic Center (OFC) in Vinita in
different capacities and who observed Nolen while he was
there. While some testified that Nolen displayed aggressive
behavior while at OFC and was medicated to reduce his

WESTLAW

© 2021

~'1omson Reuters No

aggression, several testified that Nolen displayed no signs of
mental illness. Brooke Harboe, a pre-doctoral psych intern
who performed the intake screen, testified that although it was
not an in depth evaluation she noted that Nolen demonstrated
cognitive disorganization and pervasive religious thoughts.
'1]84 The first expert witness for the defense was Dr.
Moira Redcorn, a psychiatrist at OFC. Dr. Redcom testified
that Nolen was at OFC for observation and evaluation,
not diagnosis. While there, she interviewed Nolen and
performed a psychiatric evaluation of him. She noted
that he denied depression but had some symptoms. 28 He
also presented symptoms of mania including distractibility,
grandiose thoughts, flight of ideas, and talkativeness. Dr.
Redcorn said that these were possible symptoms of mental
illness, but the most prominent symptom of mental illness
displayed by Nolen was disorganized speech. She noted
additionally, with regard to the disorganized speech, that he
could be malingering.
28

Dr. Redcom agreed on cross-examination that
weight loss and difficulty sleeping can be indicative
of something other than mental illness; these
"symptoms" are "pretty typical" for people in the
county jail.

'1]85 While Dr. Redcom testified that the objective upon
Nolen's admission to OFC was to rule out psychosis and
post-traumatic stress disorder, she was unable to establish
a discharge diagnosis due to his short stay and resistance
to answering questions. Dr. Redcom agreed that it was not
necessary to rule out PTSD, psychosis, or any mental illness
to determine competency; she stated, "You can be mentally
ill and be found competent."
'1]86 Dr. Antoinette McGarrahan also testified for the defense.
Because Nolen would not communicate with her during her
most recent attempts to evaluate him, she relied upon her
prior evaluation and several other sources in reaching her
conclusions. These included Cleveland County Detention
Center records, OFC records including reports by *851 Dr.
Redcom and Ms. Harboe, and reports written by Dr. Orth, a
forensic psychologist with the Department of Mental Health
and Substance Abuse Services who was currently the Director
of Psychology at OFC. Dr. McGarrahan testified that Nolen's
distractibility, flight of ideas, paranoia, grandiosity, verbal and
physical aggression, agitation, and hostility were consistent
with mental illness. She also ruled out malingering because
Nolen did not want to be seen as mentally ill.

cla1'l1 to or·gina U S. Governrnerit 1/1/orks

22

Nolen v. State, 485 P.3d 829 (2021)
2021 OK CR 5

~87 In answer to the seven statutory questions regarding
competency, Dr. McGarrahan testified that Nolen is not
able to appreciate the nature of the charges against him.
Nolen, she said, does not appreciate "the charges, the basis
for the charges, the consequences, the court proceedings,
and what rights he would be waiv ing by making a plea
of guilty." She testified that he does not understand the
defenses available and he cannot consult with his lawyer
and rationally assist in the preparation of a defense. His
paranoia, hostility, and aggression, she testified, preclude
him from engaging rationally with anyone, "particularly
defense counsel." Dr. McGarrahan testified that Nolen is a

person requiring treatment as defined by ~Section 1·103
of Title 43A of the Oklahoma statutes and that if treated
and monitored he could attain competency. Dr. McGarrahan
testified that she did not evaluate Nolen for mental retardation
as it was not relevant to this proceeding. Finally, she
found that Nolen was presently dangerous. Dr. McGarrahan
concluded that Nolen suffers from severe mental illness that
renders him incompetent.
~88 The State responded with the testimony of two
expert witnesses. Dr. Shawn Roberson testified first. He
reviewed the competency evaluation reports issued by
other psychologists in light of his own earlier competency
evaluation. Dr. Roberson noted that defense expert Dr. Russell
opined after examining Nolen that he did nol have severe
mental illness or meet inpatient criteria; Dr. Russell's concern
was the potential of intellectual disability. Dr. Roberson
testified that his conclusions were highly similar to those of
Dr. Orth as neither noted signs of mental illness or cognitive
impairment.

I don't think that Alton Nolen has
a severe mental illness_ I don't think
there is any evidence to suggest that
that's accurate. I think that his behavior
that [Dr. McGarrahan] interprets as
being signs of mental illness is
unresponsiveness, uncooperativeness;
but
it gets
characterized as
disorganization and paranoia. Pauses
in responding get characterized as
hallucinations.

Dr. Roberson found Nolen to be competent
'1190 The State's second expert witness was Dr. Scott Orth
who testified that he performed a competency evaluation on
Nolen pursuant 10 the court's order. During his first encounter
with Nolen, Nolen did not open his eyes and said that he had
already answered the questions and had nothing more to say.
Nolen did, however, mention his religion; he said that he was
not trying to be rude but it was against his religion to "play
along" with someone who was trying to "impeach" him with
"having a mental problem." Dr. Orth believed that Nolen's
decision not to answer questions he believed he had already
answered was a rational decision.
'IJ9 I Dr. Orth was not able to adequately answer the court's
questions based upon this initial evaluation so he looked
elsewhere for information. He checked with the medical
record departments of state-operated mental health facilities
and found no history for Nolen.

~89

In addressing Dr. McGarrahan's report, Dr. Roberson
noted that Dr. McGarrahan omitted consideration of parts of
other reports that did not comport with her conclusions. For
instance, Dr. McGarrahan discounted Dr. Redcom's concern
that Nolen might be malingering. She also discounted Ms.
Harboe's notations that Nolen was within the average range
of functioning; he appeared coherent and logical and gave
appropriate responses to questions other than religion. Dr.
Roberson testified that Dr. McGarrahan did not test Nolen
for mental illness or psychopathology; she gave a battery
of cognitive tests. Dr. Roberson noted that prior to the
previous summer, there was no indication that anyone thought
Nolen had severe mental illness and he disagreed with
Dr. McGarrahan's diagnosis of mental illness. Dr. Roberson
testified:

*8S2 'IJ92 In November of 2016, Nolen spent about two
weeks at OFC for observation and evaluation. During
this time, Dr. Orth was able to visit with and observe
Nolen, and form an opinion regarding his competency.
Nolen demonstrated a capacity to talk about the specific
charges against him. He interjected religion into almost every
statement but Dr. Orth did not feel this was a product of mental
illness; Nolen just liked to talk about religion. Dr. Orth did
not observe signs of paranoia or suspiciousness. When Dr.
Orth spoke with Nolen, Nolen was calm and cordial. Dr. Orth
observed no concentration or focus impairments problematic
for adjudicative competence; Nolen's intellectual functioning
was within the average range. Dr. Orth did not find Nolen

WESTLAW © 2021 Ttiomson Reuters i\io cldt('t' to ong1nal LJ.S Go'1eny1•e·1t Works.

23

Nolen v. State, 485 P.3d 829 (2021)

2021OKCR5
to display disorganized or delusional thinking; his religious
fixation was more akin to an overvalued belief.
'\193 Dr. Orth testified that Nolen was able to appreciate the
nature of the charges against him; he suffered no major mental
illness or cognitive impairment that would affect his ability

issue of his competency to assist in his appeal.
Id. 1992
OK CR 79, ~ 17, 845 P.2d at 1277. Nolen has neither cited
authority to the contrary nor offered persuasive argument. We
deny his request for an evidentiary hearing on the issue of his
present competency.

to understand the charges, the plea form or the questions the
court might ask. Dr. Orth also testified that Nolen was able to
consult with a lawyer and rationally assist in the preparation
of a defense; Nolen could do those things if he chose to do
so. Dr. Orth testified that Nolen did not actually have any
mental illness: any difficulty he was experiencing was the
result of the way he chose to behave. Nolen, he believed, was
competent.

f161

194 At the close of the competency hearing, the trial
court noted again the presumption of competence. The trial
court stated that while the facts were not in dispute Nolen's behavior was bizarre and his beliefs unconventional
conclusions drawn from the facts by the experts conflicted.
The trial court noted Nolen's burden of proof to show that
he was more likely than not incompetent, and the court
concluded that in light of the varying testimony, the defense
failed to meet their burden of proof. We do not find on this
record that the trial court's ruling was an abuse of discretion.

Competency to Assist in Appeal
'V95 Defense counsel asserts that Nolen is presently
incompetent and cannot communicate or rationally assist
in presenting his appeal to this Court. Counsel contends
that while much has been accomplished without Nolen's
assistance, appellate counsel has no way of knowing
about infonnation Nolen may have that could possibly
assist in his appeal. Accordingly, defense counsel filed,
contemporaneously with Nolen's brief in chief, an application
for evidentiary hearing under Rule 3.1l(A). Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App.
(2021) on the issue of his present competency.

3. Voir Dire -

For Cause Challenges

fl91

[201 ,97 Nolen argues that the trial court committed
reversible error when it denied defense counsel's request to
remove three prospective jurors for cause. This Court has held
that, " (i]n order to properly preserve for appellate review an
objection to a denial of a challenge for cause, a defendant
must demonstrate that he was forced over objection to keep
an unacceptable juror." Eizember v. State, 2007 OK CR 29, ~
36. 164 P.3d 208. 220 (citing
Brow11i11g v. State. 2006 OK
CR 8, , 8. 134 P.3d 816, 828). 'This requires a defendant to
excuse the challenged juror with a peremptory challenge and
make a record of which remain ing jurors the defendant would
have excused if he had not used that peremptory challenge to
cure *853 the trial court's alleged erroneous denial of the for
cause challenge." Id. Nolen preserved the issue as he used his
peremptory challenges to strike the three prospective jurors
he asked to remove for cause. He also advised the trial court of
four other "unacceptable" prospective jurors he would have
excused with peremptory challenges had he not been forced to
used them on the prospective jurors that the trial court would
not excuse for cause.
1211 , 98 The decision of whether to disqualify a prospective
juror for cause lies within the sound discretion of lhe trial
court.

Mitchell v. State, 2010 OK CR 14,

'll

19, 235 P.3d

640, 647 (citing
Grant v. State, 2009 OK CR 11,, 24, 205
P.3d I , 13). The trial court's decision will not be overturned
absent a finding of an abuse of discretion.

Id.

1221
[231 'l!99 A critical part of the constitutional right
1171
I 181 1196 As noted in the State's reply, it is well settled
to an impartial jury is "an adequate voir dire to identify
that a defendant must be competent to stand trial, enter a guilty
unqualified jurors."
Morgan 1: llli11ois, 504 U.S. 719, 729,
or nolo contendre plea, or abandon his appeal.
Fisher
112 S.O. 2222, 119 L.Ed.2d 492 ( 1992 ). "The purpose of
1~ State. 1992 OK CR 79, 11 14, 845 P.2d 1272. 1276. In
voir dire examination is to discover whether there are grounds
Fisher, we rejected the defendant's argument urging this
to challenge prospective jurors for cause and to permit the
Court to extend the requirement of present competency to
intelligent use of peremptory challenges."
Harmon v_
appellate proceedings.
Id. Accordingly, this Court held
Stare, 201 1 OK CR 6, if 7, 248 P.3d 918, 927 (citing Sanchez 1•.
that Fisher was not entitled to an evidentiary hearing on the
St<lte, 2009 OK CR 31,, 44, 223 P.3d 980, 997). The United

WESTLAW © 202 • Thomson Ret..terc;. No cla1r'1 to or g1ri~I

t...

S Goverr·ment Workc;.

24

Nolen v. State, 48 5 P.3d 829 {2021 )
2021 OK CR 5

States Supreme Court has held that the proper standard for
determining when a prospective juror may be excluded for
cause because of his views on capital punishment is "whether
the juror's views would prevent or substantially impair the
performance of his duties as a juror in accordance with his
instructions and his oath."
Wainwright i: Wilt, 469 U.S.
412, 424, 105 S.ct. 844, 83 L.Ed .2d 841 (1985) (internal
quotations omitted). See also Tryon v. State, 2018 OK CR 20,
fl 28, 423 P.3d 617, 630; Junes v. State, 2009 OK CR I, 14,
201 P.3d 869, 877.

1241 11100 This Court has recognized the

Wirt requirement
that jurors be willing to consider each of the three statutory

punishments: the death penalty, life imprisonment without
the possibility of parole, and life imprisonment with the
possibility of parole. Tryon, 2018 OK CR 20, 'l 28, 423 P.3d
at 630. See also Johnson i~ Swte, 2012 OK CR 5, , 30, 272
P.3d 720, 730 ("Due process oflaw requires that a prospective
juror be willing to consider all the penalties provided by law
and not be irrevocably committed to a particular punishment
before the trial begins." (quoting Sam: he:. 2009 OK CR 3 1,
ii 44, 223 P.3d at 997)). Further, while doubts regarding juror
impartiality must be resolved in favor of the accused, this
Court looks to the entirety of each potential juror's voir dire
and gives deference to the ruling of the trial court because,
"the trial judge is in a position to personally observe the
panelists, and take into account a number of non-verbal
factors that cannot be observed from a transcript." Johnson,
2012 OK CR 5,

ii

30, 272 P.3d at 730 (citing

Harmon,

201 1 OK CR 6. ~ 18. 248 P.3d at 929-30). See also
Uttecht
1: Brown , 551 U.S. I, 9, 127 S.ct. 2218, 167 L.Ed.2d 1014
(2007) ("Deference to the trial court is appropriate because
it is in a position to assess the demeanor of the venire,
and of the individuals who compose it, a factor of critical
importance in assessing the attitude and qualifications of
potential jurors."); Ei~emher v. Trammell. 803 F.3d 1129.
1135 (10th Cir. 2015) ("the trial judge is best positioned to
determine whether a potential juror will be able to follow his
or her instructions-and that a court of appeals removed from
the live proceedings must afford significant deference to the
trial judge's assessments").

Prospective Juror C.D.
4il l 01 Nolen first complains that the trial court erred in
denying his request to remove prospective juror C.D. for
cause because C.D. could not consider imposing either life
without parole or life with the possibility of parole. Nolen

notes that while C.D. initially indicated that he could consider
all three sentencing options and he would not automatically
impose the death penalty, C.D. indicated during defense
counsel's voir dire that he would not consider a "straight
life sentence." Nolen complains that C.D. was inconsistent
regarding whether he could meaningfully consider a sentence
of life or life without the possibility of parole. In addressing
Nolen's argument, it is important to *854 give context to
C.D.'s statements during voir dire.
102 At the opening ofthe death qualifying portion of the voir
dire, the trial court explained to the prospective jurors that as
to the first degree murder charge, there were three punishment
options. The court explained aggravating and mitigating
circumstances and that "you may not consider imposing the
death penalty unless you unanimously find the aggravating
circumstances outweigh any mitigating circumstances which
may be present." When C.D. was questioned by defense
counsel, C.D. indicated he would not impose a straight
life sentence in a situation where there was at least one
aggravating circumstance that made the murder "really, really
bad." However, the trial court asked defense counsel to
approach the bench and admonished her for "setting up cause
objections without providing all of the information." The
court admonished counsel that inquiry about C.D.'s ability to
consider mitigating circumstances should be made as well.
When presented with the scenario in which the State proved at
least one aggravating circumstance and the defense presented
evidence of a mitigating circumstance, C.D. stated that he
would consider the evidence with an open mind. C.D. stated,
"So I don't take it lightly, you know, I'm open to all of those
forms of punishment. If it were me on the other side, I would
want everyone to treat my case the same way."

[251 ~ 103 When the voir dire of C.D. is reviewed in its
entirety, it does not support Nolen's argument that C.D. had
a strong bias in favor of the death penalty and an inability to
consider the other punishment options of life imprisonment
and life without the possibility of parole. Any inconsistencies
in C.D.'s responses or questions as to his ability to be a fair and
impartial juror were for the trial court to resolve. Having the
benefit of observing C.D.'s demeanor throughout voir dire, the
court found his responses credible and insufficient to excuse
him for cause. Our review of the totality ofvoir dire, written
and oral responses, supports the trial court's finding that C.D.
did not have such a strong bias towards the death penalty that
the performance of his duties as juror would be prevented
or substantially impaired. Accordingly, the trial court did not
abuse its discretion in refusing to remove C.D. for cause.

WESTLAW 0 202 • Thomson Reuters No cla1ni to or·gma U S. Government Works

25

Nolen v. State, 485 P.3d 829 (2021}

20210KCR5

~~~~~~~~~~~~~~~~~~~~

Prospective Juror A.E.
1[104 Next Nolen argues that the trial court erred in denying
his request to remove prospective juror A .E. for cause because
A.E. could not consider imposing a sentence of life with
the possibility of parole and because she had significant
media exposure before the beginning of trial. Because defense
counsel requested below only that A.E. be removed for cause
based upon her inability to fairly consider the sentencing
option oflife with the possibility of parole, Nolen's complaint
on appeal that A.E. should have been removed for cause based
upon her media exposure will be reviewed for plain error only.
See Tryon, 2018 OK CR 20, 'I] 26, 423 P.3d at 630.

/261 '11I05 Nolen argues that A.E. should have been dismissed
for cause because the media exposure caused her to question
her safety during the course of the proceedings. rt is true, as
Nolen asserts, that A.E. stated in voir dire that she worked
across the street from Vaughn Foods at the time of the incident
and that she followed it on the news. However, she agreed
that she could set aside what she had heard and listen to the
facts. It is also true that A.E. expressed concern for her safety
as a juror given the media coverage of the case. The trial court
addressed this concern and assured A.E. that with the sheriff's
department and the police department the court would assure
the safety of the j urors. When asked about this concern by
defense counsel later during general voir dire, A.E. stated that
the trial court had put her concerns to rest. The record does not
show A.E.'s prior media exposure or safety concerns would
prevent or substantially impair the perfonnance of her duties
as a juror in accordance with her instructions and oath. There
was no error, plain or otherwise, in the trial court's failure
to remove A.E. for cause based upon her media exposure or
safety concerns.
*855 (27] '1] 106 Next, Nolen complains that the trial court
abused its discretion in declining defense counsel's request
to remove A.E. for cause based upon her strong bias against
the punishment option of life with the possibility of parole.
During the death qualifying portion of voir dire, after A.E.
stated that she could consider all three punishment options,
she added that it would be hard for her to recommend life
with the possibility of parole, "especially if it was decided
that all of the facts were there." When questioned by the trial
court, A.E. reaffirmed that she could imagine circumstances
under which a sentence of life with the possibility of parole
would be appropriate. After the significance of aggravating
circumstances and mitigating circumstances was explained
to the prospective jurors, A.E. confirmed, again, that she

could leave all three punishment options on the table until
after she heard all of the evidence. When, at lhe end of the
death qualifying voir dire, defense counsel moved to strike
A.E. for cause based upon her inability to fairly consider
recommending a life sentence, the trial court denied this
request. Based on the record, we find that the trial court's
ruling was not an abuse of discretion. The record does not
show A.E.'s views on the life imprisonment sentencing option
would prevent or substantially impair the performance of her
duties as a juror in accordance with her instructions and oath.

Prospective Juror L.L.
107 Finally, Nolen complains that prospective juror L.L.
should have been removed for cause based upon his belief
that the death penalty should be automatically imposed in
first degree murder cases. L.L. originally indicated in the
death qualifying portion ofvoir dire that he could consider all
three punishment options. However, Nolen notes that when
questioned by defense counsel, LL. indicated that he supports
imposition of the death penalty in first degree murder cases
where the killing was intentional. This belief, he argues,
rendered LL. substantially impaired and unable to fairly
consider all three punishment options.

[281 ~ I 08 The record shows that L.L. was initially quite
adamant that he could give meaningful consideration to all
three punishment options. He agreed that everything was
on the table and he reaffirmed more than once that he
could give meaningful consideration to all three punishment
options. While LL. stated that the death penalty would be
appropriate punishment for premeditated murder, he clarified,
when asked by the trial court, that he could consider all three
punishment options. When defense counsel requested that
L.L. be removed for cause, the trial court declined, finding
that L.L.'s responses did not show him to be substantially
impaired; he could consider all three punishment options. The
record supports the trial court's ruling and we find no abuse
of discretion. This proposition is without merit and relief is
not required.

4. Voir Dire Restrictions
(291 '1] 109 Nolen argues that he was denied his right to select
a fair and impartial jury due to restrictions placed on defense
counsel's questioning of prospective jurors by the trial court.
"The manner and extent of l'Oir dire is within the discretion of
the trial court whose rulings will not be disturbed on appeal

WESTLAW © 2021 ~homson ReJle's No claim to onmral J S Govern'l1e·1t 111/o'ks

26

Nolen v. State, 485 P.3d 829 {2021)
2021 OK CR 5

absent a clear abuse of discretion." ~Ill Mitchell, 2010 OK CR
14, ,- 10, 235 P.3d at 646 (citing Eizember, 2007 OK CR 29,
1° 67, 164 P.3d at 228).
-W 110

Nolen specifically complains that defense counsel was
precluded from asking prospective jurors questions designed
to reveal juror bias regarding the insanity defense. The record
shows that during voir dire, defense counsel asked four
prospective jurors whether they believed that, "somebody can
do something because of mental illness or insanity and not
know what they were doing was wrong?" The first three
prospective jurors answered the question affirmatively. When
the question was posed to a fourth prospective juror, it was
met with objection by the State on the ground that defense
counsel was improperly testing the theory of defense to
see if the jurors would be amenable to it. Defense counsel
responded that she was not testing the theory of the case
but rather inquiring to determine whether the prospective
jurors could consider the defense of not guilty by reason of
insanity. The trial *856 court sustained the State's objection
and Nolen complains on appeal that this ruling was in error.

(321 'l)l 12 However, voir dire is not without limitations. The
trial court may restrict counsel from asking questions that are
repetitive, irrelevant or which regard legal issues upon which

the trial court will subsequently instruct the jury. ~,fl Harmon,
2011 OK CR 6, 7, 248 P.3d at 927. This Court has held
that while a defendant is entitled to a voir dire that fairly
and adequately probes a juror's qualifications, a defendant is
not necessarily entitled to test the prospective jurors on their
capacity to accept his theory of the case. Robinson \'. State,
2011 OK CR 15, 16, 255 P.3d 425, 431-32 ("An attorney
should not use voir dire to test prospective jurors' willingness
to accept a party's theory of the case, rather than the jurors'
impartiality.").

133J 'l) l 13 In the present case, the questions asked by defense
counsel regarding insanity were not designed to discern
whether the prospective jurors could apply the law on the
theory of the defense of insanity as their oath required but
rather, whether they were open to accepting Nolen's theory of
defense. In ruling on the State's objection to defense counsel's
questions regarding insanity, the trial court stated, "I think
you've gone far enough. 1 think you've put it out there. I'm
1301 1311 '11111 The United States Supreme Court has held going to sustain the objection. I don't know of any authority
that, "[i]n essence, the right to jury trial guarantees to
that allows you to test your - either theory of the case,
the criminally accused a fair trial by a panel of impartial,
whether that's a defense or plea." As the State points out,
the trial court's ruling on this particular question did not
'indifferent' jurors."
Irvin \( Dowd, 366 U.S. 7 17, 722,
preclude defense counsel from asking questions about mental
81 S.Ct. 1639, 6 L.Ed.2d 751 {1961). See also
Harmon,
illness - which was discussed at length - or even from
201 1 OK CR 6, 'II 7, 248 P.3d at 927 ('The purpose of voir
asking different questions about insanity; defense counsel was
dire examination is to discover whether there are grounds
not precluded from asking whether prospective jurors could
to challenge prospective jurors for cause and to permit the
consider an insanity defense if they were so instructed. This
intelligent use of peremptory challenges."). This guarantee
single restriction on voir dire was not an abuse of discretion
includes the right to be tried by jurors who are capable of
and did not operate to deny Nolen a fair trial by a panel of
putting aside their personal impressions and opinions and
impartial jurors. This proposition is denied.
rendering a verdict based solely on the evidence presented
in court. Vair dire is a vehicle for ensuring this right, as it
"serves the dual purposes of enabling the court to select an
5. Admission of Gruesome Photographs
impartial jury and assisting counsel in exercising peremptory

challenges."
Mu'Min v. Virginia, 500 U.S. 415, 431, 111
S.ct. 1899, 114 L.Ed.2d 493 (1991). Thus, in voir dire, a
"suitable inquiry is permissible in order to ascertain whether
the juror has any bias, opinion, or prejudice that would affect
or control the fair determination by him of the issues to be
tried."
Id. al 422, l 11 S.Ct. 1899 (quoting Co1111ors 1~
UnitedStme.s. l58U.S.408,4l3, l5 S.Ct.951,39L.Ed.1033
(1895)).

(34)
(35]
(36] ~114 Nolen challenges the trial court's
admission into evidence of four photographs he characterizes
29

as gruesome, shocking, and disturbing.
Defense counsel
objected to the admission of State's Exhibits I02, 104,
and 108, both in a pre-trial motion in limine and again at
trial. Accordingly, we review the trial court's ruling on the
admissibility of these photographs for an abuse of discretion.
Tryon, 2018 OK CR 20, '1156, 423 P.3d at 636. Unless a clear
abuse of discretion is shown reversal will not be warranted.
Horn v. State, 2009 OK CR 7, 'l) 41, 204 P.3d 777, 787.

WESTLAW © 2021 Tllomson Reuters No c air'l to original l., S Gover'lment WorKs

27

Nolen v. state, 485 P.3d 829 (2021)
2021OKCR5

-- ----

Because State's Exhibit 193 was not met with objection at trial
we review the admission of this photograph for plain error.

Williams v. State, 2008 OK CR 19, ~ 69, 188
P.3d 208, 223. Such error must be plain and obvious and must
affect the defendant's substantial rights. Lee v. Swte, 2018 OK
CR 14. 114, 422 P.3d 782, 785. We reverse only where the error
"seriously affects the fairness, integrity or public reputation
of the judicial proceedings." Id. See also Hogtm v. Stale, 2006
OK CR 19, ~ 38, 139 P.3d 907, 923.
*857 JO See

29

State's Exhibits I02, I04, and I08 depicted the
victim, Colleen Hufford, at the crime scene and
State's Exhibit 193, taken at the medical examiner's
office, showed a portion of her face and the knife
used in the attack.

30

When the admissibility of State's Exhibit 193 was
discussed prior to trial, defense counsel appeared
not to object to its admission if the photograph were
cropped. State's Exhibit 193 appears to have been
cropped as per defense counsers request as it is

cause of death and identity of the perpetrator were never
contested. Thus, he complains that the photographs should
have been excluded because any minimal probative value they
may have had was substantially outweighed by the danger
of unfair prejudice - their tendency to elicit an emotional,
rather than a rational, reaction.
I 17 While the trial court did not detail the reasons for its
ruling on the admissibility of photographs at trial, it did so

when the issue was addressed prior to trial. The trial court
reviewed the photographs with counsel, sustaining defense
counsel's objection to some photographs and overruling it as
to others. Where photographs were duplicative, the trial court
asked the prosecutor to pick one and excluded the others. The
trial court noted that State's Exhibits I 02, 104, and I 08, which
were taken at the crime scene, were relevant because they
depicted the entirety of the injuries suffered by Ms. Hufford,
including defensive wounds. The trial court also noted that
the photograph taken at the medical examiner's office, State's
Exhibit 193, showed that the serrated knife matched injuries
to Ms. Hufford's chin.

smaller than the other photographs admitted into
evidence and defense counsel did not specifically

1 118 The photographs at issue were relevant as they depicted
the victim and crime scene, they illustrated the nature and
object to the admission of this cropped photograph
extent of the wounds, and they corroborated the eyewitness
at trial.
testimony. While gruesome, the probative value of these
138J 11115 It is well established that gruesome crimes photographs, considered both individually and collectively,
1371
was not substantially outweighed by their prejudicial effect.
make for gruesome photographs.
Cole 1 ~ Stale. 2007
The
trial court did not abuse its discretion in admitting the
OK CR 27, ~ 29, 164 P.3d 1089, 1096. This alone will
crime scene photographs into evidence. Furthermore, the
not render them inadmissible "as long as they are not so
admission of the cropped photograph taken at the medical
unnecessarily hideous or repulsive that jurors cannot view
examiner's office was not error, plain or otherwise. Relief is
them impartially."
Bosse v. State, 201 7 OK CR 10, ii 48,
not required.
400 P.3d 834. 853. See also S101if)er v. State, 2006 OK CR
46, 11 109, 147 P.3d 245, 268. The State is "not required
to downplay the violence involved or its repercussions."
TIJ·o11. 2018 OK CR 20, 11 63. 423 P.3d at 63 7 (quoting

Jones, 2009 OK CR l, 11 57, 20 l P.3d at 885). The test for
admissibility ofphotographs, however, is not whether they are
gruesome but whether they are relevant and their probative
value is not substantially outweighed by the danger of unfair
prejudice or needless presentation of cumulative evidence. 12
0.S.2011, §§ 2402, 2403. Relevant evidence is defined as
"evidence having any tendency to make the existence of any
fact that is of consequence to the detenni nation of the action
more probable or less probable than it would be without the
evidence." 12 O.S.2011. § 2401.

6. Admission of Pre-Mortem Photograph
1 119 Nolen argues that the admission of a pre-mortem
photograph of Colleen Hufford during first stage of trial
violated his due process rights to a fundamentally fair trial and
injected passion, prejudice, and other arbitrary factors into the
sentencing proceedings. Because defense counsel objected to
the admission of this photograph below, we review the trial
court's ruling on its admissibility for an abuse of discretion.
*858 Bosse, 2017 OK CR 10, 11 52, 400 P.3d at 854.
Again, absent a finding of a clear abuse of discretion, reversal
is not warranted. Horn, 2009 OK CR 7, ~ 41, 204 P.3d at 787.

139] 1Jll6 Nolen argues that the photographs at issue in the
present case had very little relevance considering that the

WESTLAW © 202 l Thomson ReL1ters. No c1a1"1 to ong nal U S Government 'vVork.s.

28

Nolen v. State, 485 P.3d 829 (2021)
2021 OK CR- 5

[401
[411 11120 Oklahoma law allows admission ofa premortem photograph to show the general appearance and
condition of the victim while alive.
Goode i' State, 2010
OKCR 10, 1156, 236 P.3d671,682. Title 12 O.S.2011, § 2403
specifically provides that "in a prosecution for any criminal
homicide, an appropriate photograph of the victim while alive
shall be admissible evidence when offered by the district
attorney to show the general appearance and condition of the
victim while alive." Nolen notes that constitutional challenges
to this language have been raised and addressed before and
that this Court has "attempted to save this legislative act
from unconstitutionality by continuing to subject such photos
to balancing of prejudice versus probative value...." Indeed,
this Court has rejected challenges to the constitutionality of
this statutory provision and found that the statute does not
afford "blanket admissibility" of such photographs because
only one "appropriate" in-life photograph is allowed and that
photograph is subject to the balancing test set forth in Section
2403. Hogun, 2006 OK CR 19, 11, 62-64, 139 P.3d at 930-931.

See also
Bosse, 2017 OK CR 10, 11~ 52-53, 400 P.3d at
854. As in the past, Nolen's argument does not overcome
the presumption that legislative acts are constitutional. See
Glossip v. State, 2007 OK CR 12,, 78, 157 P.3d 143, 156-57.
11121 Nolen also claims that pre-mortem photographs have no
relevance to any issue in the second stage of trial, and the
introduction of the in-life photograph served no purpose other
than to elicit sympathy for the victim. We rejected this claim
in
Malone '" State, 2007 OK CR 34, 11, 85-86, 168 P.3d
185, 218-19, holding that, "in capital cases, in particular, it
is constitutional to allow the sentencing jury an actual 'quick
glimpse' of the person who later became the victim in the case
- before he or she was reduced to the corpse shown in crime
scene photographs- through the admission of an 'appropriate
photograph of the victim while still alive.' " Nolen has not
persuaded us to find otherwise.
1421 11122 The photograph admitted in the present case was
an appropriate snapshot of the victim, offered to show her
general appearance and condition while alive in accordance
with Section 2403. The probative value of the photograph
was not substantially outweighed by the danger of unfair
prejudice. The trial court did not abuse its discretion in
allowing this photograph into evidence and relief is not
required. This proposition is without merit.

-----------~-

~-

-

7. Constitutionality of Aggravating Circumstances
1431 ~123 Nolen claims that three of the aggravating
circumstances found by the jury failed to perform the
narrowing function required by the Eighth and Fourteenth
Amendments to the United States Constitution and Article II,
§§ 7, 9, and 20 of the Oklahoma Constitution. He argues that
the aggravating circumstances at issue were not adequately
defined in jury instructions to serve the narrowing function
necessary for constitutional application of the death penalty.
We have repeatedly rejected these arguments.
,124 Nolen first complains that the great risk of death to
more than one person aggravating circumstance is vague
and failed to perform the necessary narrowing function. This
Court has addressed and rejected constitutional challenges to
this aggravating circumstance in the past.
Bosse, 2017 OK
CR I 0.1172, 400 P.3d at 859-60; Wood v. State, 2007 OK CR
17, ~ 26, 158 P.3d467,477. Nolen also complains that because
there is no uniform jury instruction for this aggravating
circumstance, the jury was not given proper guidance on how
to apply it. This Court has rejected this argument holding that,
a separate uniform jury instruction defining this aggravating
circumstance is not necessary.
Bosse, 2017 OK CR I 0, 11
73, 400 P.3d at 860 ("the statutory language explaining this
aggravating circumstance sufficiently informs jurors what
is necessary to support a finding that it is present"). See
also Eizember, 2007 OK CR 29, 11, 137-139, 164 P.3d at
241 (noting that the statutory language is readily *859
understandable). We see no reason to depart from these earlier
rulings.
~ 125

Nolen also complains that the continuing threat
aggravating circumstance is unconstitutionally vague and
fails to perform the necessary narrowing function. Nolen
acknowledges that this Court has repeatedly rejected
attacks on this aggravating circumstance through the years.
Nonetheless, he argues that in light of "recent developments
in capital punishment jurisprudence" this Court should reexamine our earlier holdings. Nolen makes this argument
without citation to recent authority and without reference
to more recent cases wherein this Court rejected this same
argument. See, e.g.,
Goode, 2010 OK CR I 0, ,~ 69-72, 236
P.3d at 684-85; Sanchez, 2009 OK CR 31, 1J 81-94, 223 P.3d
at 1006-11. Nolen has presented us no compelling reason to
reevaluate this aggravating circumstance at this time.

WESTLAW © 2021 Ttiomson Reuters t-.io claim to or gi11d U.S. Govewment Works.

29

Nolen v. State, 485 P.3d 829 (2021)

2021 OK CR 5

iJl 26 Finally, Nolen challenges the constitutionality of
the especially heinous, atrocious, or cruel aggravating
circumstance arguing that it is vague and fails to perform
the requisite narrowing function. This Court has rejected
similar challenges to the constitutionality of this aggravating
circumstance. See, e.g.. Hmris v. Swte , 2019 OK CR 22, ii
91, 450 P.3d 933, 965; • Bench i : State, 20 18 OK C R 31,
,-112,431 P.3d929,961-62; Tt)·on. 20180K C R 20. il 130 ,
423 P.3d at 652. The analysis and authorities presented by
Nolen raise nothing new. We continue to find that the heinous,
atrocious or cruel aggravating circumstance is not vague and
that the instructions given regarding it sufficiently narrow its
application. This claim is denied.

8. Prosecutorial Misconduct
[44] iJ127 Nolen complains prosecutorial misconduct
deprived him of his right to a fair trial. The alleged misconduct
not met with objection at trial is reviewed for plain error
only. Birens i: Swte. 2018 OK CR 33, ~] 20, 431 P.3d 985,
994. Furthermore, we also review for plain error where
objection on appeal is different than the objection made
below.
Be11d1, 2018 OK CR 31. , 140, 431 P.3d at 967
(when a specific objection is made at trial, this Court will not
consider a different one on appeal).
145] iJ128 On plain error review, Nolen must show that the
commission of a plain or obvious error affected the outcome
of his trial. Nicholson v. State, 2018 OK CR I 0, ii 9, 421 P.3d
890, 895. "This Court will correct plain error only where it
seriously affects the fairness, integrity or public reputation of
the proceedings." Id. "[W]e evaluate the alleged misconduct
within the context of the entire trial, considering not only
the propriety of the prosecutor's actions, but also the strength
of the evidence against the defendant and the corresponding
arguments of defense counsel." Hanson v. State, 2009 OK CR
13, ~ 18, 206 P.3d 1020. 1028.

Eliciting Sympathy for the Victim
[46] '11129 Nolen complains that the prosecutor elicited
sympathy for the victim in both opening and closing
arguments. This Court has indeed held that it is improper
for the prosecutor to elicit sympathy for the victim from the
jurors. Pullen v. State, 2016 OK CR 18, ~ 14, 387 P.3d 922,
927. The single comment at issue in opening statement was
not met with objection below. It occurred when the prosecutor

described the victim as, "one of the most beautiful and caring
ladies that you'll ever meet .... "This comment did not deprive
Nolen of a fair trial or affect the jury's finding of guilt or
assessment of punishment. There was no plain error here.
1471 ,130 In first stage closing argument the prosecutor
basically told the jury to not consider only the testimony
of all the doctors, but to talk about Ms. Hufford and not
forget about what happened to her. Defense counsel objected,
complaining essentially that the prosecutor's argument was
not relevant. As the objection on appeal is different than the
objection made below, we review for plain error.
Bem;h,
2018 OK CR 3 l , 140, 431 P.3d at 967. Both parties have the
right to discuss the evidence from their respective standpoints
and the prosecutor's comments fell within the wide range of
acceptable argument. See
Bland v. State, 2000 OK CR I l,
~ 97, 4 P.3d 702, 728. The comments here were based on the
evidence and not merely *860 appeals for sympathy. The
prosecutor's comments were not error, plain or otherwise.

Denigrating the Defense
'11 131 Nolen argues that the same comments complained of
above improperly denigrated the evidence supporting the
insanity defense. He did not make this objection below. Nolen
reads the prosecutor's comments as an attack on the defense
of insanity, but we do not. The prosecutor was arguing the
facts of the case, urging the jury to consider what Nolen
had done to Hufford, and this was well within his discretion.
Again, both parties have the right to discuss the evidence from
their respective standpoints and the prosecutor's comments
fell within the wide range of acceptable argument. See '
There was no error here, plain or otherwise.

id

InOaming the Passions of the Jury
148] iJl 32 Finally, Nolen argues that the prosecutor unfairly
inflamed the passions of the jury in closing argument when
he compared the in-life photograph of the decedent with a
gruesome crime scene photograph of her and stated, "Ladies
and Gentlemen, he turned this into this. He turned this
beautiful lady into this on the floor, this and this." This
argument was not met with objection and is accordingly,
reviewed only for plain error. This argument, and the use of
properly admitted photographs, was a reasonable comment
on the evidence. The contrasting of the two photographs did
not render Nolen's trial fundamentally unfair. See

WESTLAW © 2021 Thon'son Reuter-5. No ..:la•m to original J.S Government Works.

Bench,

30

Nolen v. State, 485 P.3d 829 (2021)
2021 OKCRS-

2018 OK CR 31 , 1l11 148-50, 431 P.3d at 968-69. Relief is not
required.

as did the jury below, that the aggravating circumstances in
this case outweigh the mitigating circumstances.

9. Cumulative Error

DECISION

149]
{501
1511
1521 1\133 Nolen claims that even ifnc1ill37 The Judgment and Sentence of the District Court is
individual error in his case merits relief, the cumulative effect
AFFIRMED. The Application for an Evidentiary Hearing
of the errors committed requires a new trial or favorable
on Sixth and Fourteenth Amendment Claims is DENIED.
sentence modification. "The cumulative error doctrine applies
Appellee's Motion for Leave to File Amended Brief of
when several errors occurred at the trial court level, but none
Appellee is GRANTED and the Clerk of this Court is
alone warrants reversal." Tajolla v. Stale. 2019 OK CR 15, 11
ORDERED to file the tendered brief. Pursuant to *861
45, 446 P.3d 1248, 1263. Although individual errors may be of
Rule 3.15, Rules oflhe Oklahoma Court oj Crimilw/ Appeals,
insufficient gravity to warrant reversal, the combined effect of
Title 22, Ch.18, App. (2021 ), the MANDATE is ORDERED
cumulative errors may require a new trial. Id. The commission
issued upon the delivery and filing of this decision.
of several trial errors does not deprive the defendant of a fair
trial when the errors considered together do not affect the
outcome ofthe proceeding. /cl. There are no errors, considered
KUEHN, P.J.: Concur
individually or cumulatively, that merit additional relief in
this case. This claim is denied.
LUMPKIN, J.: Concur in Results
LEWIS, J.: Specially Concur

10. Mandatory Sentence Review
1\134 Title 2 1 O .S.20 11. § 701.13(C)(l)&(2) requires this
Court to determine "[w]hether the sentence of death was
imposed under the influence of passion, prejudice or any
other arbitrary factor" and "[w]hether the evidence supports
the jury's or judge's finding of a statutory aggravating
circumstance." After conducting this review, this Court may
order any corrective relief that is warranted or affirm the
sentence. 2J O.S.2011, § 701.13(E).
135 Having reviewed the record in this case, we find that
Nolen's death sentence was not the result of trial error or
improper evidence or witness testimony and that the death
sentence was not imposed under the influence of any arbitrary
factor, passion or prejudice.
136 The jury's finding that Nolen (I) was previously
convicted of a felony involving the use or threat of violence to
the person; (2) knowingly created a great risk of death to more
than one person; (3) that the murder was especially heinous,
atrocious, or cruel; and (4) that there existed a probability
that Nolen would commit criminal acts of violence that would
constitute a continuing threat to society was amply supported
by the evidence. Weighing the aggravating circumstances and
evidence against the mitigating evidence presented, we find,

HUDSON, J.: Concur
LUMPKIN, JUDGE: CONCUR IN RESULTS
I I concur in the results reached by the Court in this case.
I write to set out the proper procedure to determine if a
defendant is exempt from the death penalty in accordance
with the U.S. Supreme Court decision in
Atkins v. Virginia.
536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002); this
Court's decision in , . Mwphy

1~ Slate, 2002 OK CR 32,

54 P.3d 556, overruled in part by
Blonner 1·. State, 2006
OK CR I, 127 P.3d 1135); and the implementation of these
decisions pursuant to 21 O .S.20 l I, § 70 I. I 0.
112 Throughout the implementation of the Supreme Court's
determination that the Eighth Amendment to the U.S.
Constitution precludes the execution of a person who
is mentally retarded/intellectually disabled (MR/ID), the
process is addressed in three steps. I write to set out what
I consider to be the legislative history of our current statute
passed to address mental retardation/intellectual disability,
specifically: I) 21 O.S.2011 , § 701.10; 2) the supporting
medical/ legal authority addressing the nature of mental
retardation/intellectual disability and the nature of proof
required to show a person qualifies under its criteria; and 3)
application of this criteria and proof to the current case.

WESTLAW © 2021 Thornsor' Reuters No clarm to orrg1nal US Gover·1men: Wo'ks

31

Nolen v. State, 485 P.3d 829 (2021)
2021 OK CR 5

intellectual functioning (Criterion A) that is
accompanied by significant limitations in adaptive
functioning in at least two of the following
skill areas: communication, self-care, home living,
sociallinterpersonal skills, use of community
resources, self-direction, functional academic
skills, work, leisure, health, and safety (Criterion
B). The onset must occur before age 18 years
(Criterion q_ Mental Retardation has many
different etiologies and may be seen as a
final common pathway of various pathological
processes that affect the functioning of the
central nervous system." Diagnostic and Statistical
Manual of Mental Disorders 41 (4th ed.2000).
"Mild" mental retardation is typically used to
describe people with an IQ level of 50-55 to
approximately 70.

I.

Legislative History and Origin of the
Limitation to the Eighth Amendment.
1[3 In
Atkins, the Supreme Court of the United States held
that the Eighth Amendment's prohibition against "cruel and
unusual punishment" precluded the imposition of the death
penalty on a mentally retarded criminal.
at 32 1, 122 S.Ct. 2242.

Atkins, 536 U.S.

~4

In its analysis, the Supreme Court stipulated that, at
Atkins' trial below, defense counsel relied on expert testimony
from "a forensic psychologist who had evaluated Atkins
before trial and concluded that he was 'mildly mentally

Atkins , 536 U.S. at 309 n.3, 122 S.ct. 2242
(internal citations omitted).

retarded.' " 1

Atkins. 536 U.S. at 308. 122 S.Ct. 2242.
The expert's "conclusion was based on interviews with people
who knew Atkins, a review of school and court records,
and the administration of a standard intelligence test which

2

indicated that Atkins had a full scale IQ of 59." 2
*862
Id. at 308-09, 122 S.Ct 2242_ Quoting Stedmans Medical
Dictionary, the Supreme Court defined mental retardation 3
as "requir[ing] not only subaverage intellectual functioning,
but also significant limitations in adaptive skills such as
communication, self-care, and self-direction that became
manifest before age 18."
2242.

Atkins. 536 U.S. at 318, l 22 S.Ct.

The American Association on Mental Retardation
(AAMR) defines mental retardation as follows:
"Mental retardation refers to substantial limitations
in present functioning. It is characterized by
significantly subaverage intellectual functioning,
existing concurrently with related limitations in
two or more of the following applicable adaptive
skill areas: conununication, self-care, home living,
social skills, community use, self-direction, health
and safety, functional academics, leisure, and
work. Mental retardation manifests before age 18."
Mental Retardation: Definition, Classification, and
Systems of Supports 5 (9th ed.1992).
The American Psychiatric Association's definition
is similar: 'The essential feature of Mental
Retardation is significantly subaverage general

WESTLAW

At the sentencing phase, Dr. Nelson testified:
" [Atkins'] full scale IQ is 59. Compared to the
population at large, that means less than one
percentile .... Mental retardation is a relatively rare
thing. It's about one percent of the population."
According to Dr. Nelson, Atkins' IQ score "would
automatically qualify for Social Security disability
income." Dr. Nelson also indicated that of the
over 40 capital defendants that he had evaluated,
Atkins was only the second individual who met
the criteria for mental retardation. He testified that,
in his opinion, Atkins' limited intellect had been a
consistent feature throughout his life, and that his
IQ score of 59 is not an "aberration, malingered
result, or invalid test score."
Atkins, 536 U.S. at 309 n.5, 122 S.Ct 2242
(internal citations omitted).

3

Stedmans
Medical
Dictionary
777730:
"[S]ubaverage general intellectual functioning
that originates during the developmental period
and is associated with impairment in adaptive
behavior. The American Association on Mental
Deficiency lists eight medical classifications
and five psychological classifications; the latter
five replace the three former classifications of
moron, imbecile, and idiot. Mental retardation
classification requires assignment of an index for
performance relative to a person's peers on two

© 2021 Thomson Reuters No clairr to origi•1al U.S Government Works.

32

Nolen v. State, 465 P.3d 829 {2021)

2021 OK CR 5

interrelated criteria: measured intelligence (fQ) and
overall socioadapti ve behavior (a judgmental rating
of the person's relative level of performance in
school, at work, at home, and in the community).
In general an IQ of 70 or less indicaces
menial retardation (mild = 50155- 70; moderate 35140-50155; severe = 20/25-35/40; profound =
below 20125); an IQ of 70-85 signifies borderline
intellectual functioning."
~5 However, rather than set out a uniform test for determining
the mental status of criminal defendants, the Court, noting
both the "serious disagreement about the execution of
mentally retarded offenders" and the fact that " [n]ot all people
who claim to be mentally retarded ... will fall within the range
of mentally retarded offenders," left to the "State[s) the task
of developing appropriate ways to enforce the conscitutional

restriction."

Id. at 317, 122 S.Ct. 2242.

we noted in ~ Mwphy, the Oklahoma Legislature
had attempted to address the issue of mental retardation, but
the Governor at the time had precluded the passage of that

16 As

legislation. Due to that failure to act, and in light of Atkins,
this Court was forced to act. Accordingly, we adopted the
following definition for menial retardation in ~ Mwphy to
apply to defendants, in capital cases, alleging they are not
eligible to be sentenced to the death penalty:
A person is "mentally retarded": (I) If he or she
functions at a significantly sub-average intellectual level
that substantially limits his or her ability to understand
and process information, to communicate, to learn from
experience or mistakes, to engage in logical reasoning,
to control impulses, and to understand the reactions of
others; (2) The mental retardation manifested itself before
the age of eighteen (18); and (3) The mental retardation
is accompanied by significant limitations in adaptive
functioning in at least two of the following skill areas:
communication; self-care; social/interpersonal skills; home
living; self-direction; academics; health and safety; use of
community resources; and work.
It is the defendant's burden to prove he or she is mentally
retarded by a preponderance of the evidence at trial.
Intelligence quotients are one of the many factors that
may be considered, but are not alone determinative.
However, no person shall be eligible to be considered
mentally retarded unless he or she has an intelligence
quotient of seventy or below, as reflected by at least

one scientifically recognized, scientifically approved, and
contemporary intelligent quotient test.
This standard shall be used at all future and pending capital
trials, until such time as it may be replaced by a suitable
legislative enactment.

~ Mwpliy, 2002 OK CR 32, iJ 31, 54 P.3d at 567-68.
iJ7 Subsequent to the publication of • M11qJhy , the language
above was codified by the Legislature in 21 O.S.2011, §
70 I . I Ob. Therefore, this guidance must also be considered as
a part of the legislative history which goes to the interpretation
of§ 70 I.I Ob.
iJ8 I agree with Judge Rowland that we are to apply the
plain language of the statute in this case. However, the
interpretation of statutes is always to ensure the application
of the legislature's intent in the statute. In Oklahoma, finding
legislative history to determine that intent is extremely rare.
However, in this case, we do know the legislature's *863
intent, and that is to comply with the Supreme Court's decision
in
Atki11s and the codifying of our decision in 111111 Mwphy.
In lhal regard, we first look to what evidence the Supreme
Court used to form their opinion as set out above.
iJ9 As a result, I view the statute requires a defendant to put
forth, by a preponderance of the evidence, that: l) he or she
has a subaverage intelligence level of 70 or below applying
the standard deviation; 2) it was manifested before age 18;
and 3) if those criteria are met, then he/she must also show
adaptive functioning limitations in at least two (2) of the
above listed areas of life.

II.

Analysis of the Limited Application of the
Exemption due to the Extremely Rare Occurrence
of Mental Retardation/Intellectual Disability
in the Population as a Whole, Including both
Legal and Medical Evidence to Prove a Person
is Mentally Retarded/Intellectually Disabled.
iJIO Approximately 6.5 million people, or less than 2% of the
population, in the United States have an intellectual disability.
See Measuring Mental Retardation; IQ tests, Social Security
Disability Law & Procedure in Federal Court§ 5:42 ("only

WESTLAW @ 2021 Tl'on'sor Reuters. No claim to ongiral U.S. Goverrimert Works.

33

Nolen v. State, 485 P.3d 829 (2021)
2021 OK CRS

2% of the general population scores 69 or below"). The causes
of MR/ID in lhat approximated 2% of the population can be
broken down into three subcategories: prenatal, perinatal, and
postnatal causes. Of these three causes, prenatal causes (such
as genetic syndromes, brain malfonnations, or environmental
influences) are the most common, and postnatal causes (such
as traumatic brain damage, infection, or severe malnutrition)
are the rarest. Genetic causes alone account for 30% to 50% of
all intellectual disability cases. Other research yields data that
some 25% to 40% of MR/ID causes are unknown. While the

precise statistical breakdown of the pre-, peri-. and postnatal
causes of this 2% has proved evasive in my research efforts,
it is evident that the cases of postnatal causes of ID are few
and far between.
11 The following chart Jays out the stages at which mental
retardation can be identified and the causes so identified by
the medical community.

*864

Environmental factors

- Deficiencies, such as iodine
deficiency and folic acid
deficiency
- Severe malnutrition in
pregnancy-Rh incompatibility
- Using substances such as
alcohol (maternal alcohol
syndrome), nicotine,
and cocaine during early
pregnancy
- Exposure to other harmful
chemicals such as pollutants,
heavy metals, and harmful
medications such as
thalidomide, phenytoin and
warfarin sodium in early
pregnancy
- Maternal infections
such as rubella,
syphilis, toxoplasmosis,
cytomegalovirus and HIV
- Others such as excessive
exposure to radiation

Prenatal

Chromosomal abnormalities
(cytogenetic techniques)

Trisomy 21
Partial trisomies (e.g., 4p, 9q)
Aneusomies of the X
chromosome
Partial deletions (eg, 5p-/cri
de chat)
Translocations

Cryptic chromosomal
abnormalities(complex
methods)

WESTLAW

~

- Microdeletions or
microduplications of
chromosomal segments

2021 fhon'son Reuter., No Clain' to original J.S Governme ll Wo•ks

34

Nolen

v. State, 485 P.3d 829 (2021)

2021 OK CR 5

-----

Wolf-Hirschhorn syndrome
Pallister-Killian syndrome
18p deletion
-Cryptic subtelomeric
rearrangements (eg,
deletions, duplications)
#-thalassemia with mental
retardation, Smith Magenis
syndrome (deletie 17p11.2.),
Rubinstein-Taybi syndrome
(16p13.3)
-Cryptic interstitial
rearrangements duplications:
15q11-13 duplication: Kabuki
Makeup syndrome
Contigous gene syndrome
Mutation of a single gene

X-linked mental retardation
Mowat-Wilson syndrome
Cornelia de Lange syndrome
Lissencephaly with cerebellar
hypoplasia
Walker-Warburg syndrome
(also known as HARD
syndrome)
Muscle-eye-brain disease
(MEB)
Fukuyama congenital
muscular dystrophy (FCMD)
with type 2 lissencephaly
Neu rofi bromatosis
type 1 (NF1 ); Cerebral
malformations

Perinatal

3rd trimester

Complications of pregnancy
Diseases in mother such as
heart and kidney disease
and diabetes Placental
dysfunction

During delivery

Severe prematurity, very low
birth weight, birth asyphyxia

--------------------

---- -

WESTLAW ~ 2021 Thomson Reuters No claim to original U.S. Government Works

35

Nolen v. State, 485 P.3d 829 (2021)
20-2-COK CR- 5

Difficult and/or complicated
delivery Birth trauma,
vascular accidents

Postnatal (in infancy and
childhood)

Neonatal

Septicemia, severe jaundice,
hypoglycemia

Traumatic, accidental
infectious

Brain infections such as
tuberculosis, encephalitis,
and bacterial meningitis
Head injury Chronic lead
exposure Severe and
prolonged malnutrition Gross
under stimulation

MR that develops after
a period of normal
development

Lysosomal storage diseases
Peroxizomal disorders
Exposure to heavy metals,
pesticide, malnutrition

Multifactorial or complex
inheritance MR
The only major point of confusion about the age of

Maria
Puiu
et
al.,
The
Genetics
of
Me11tdl
Retardation,
Genelic
Disorders
(Jan.
9,
2013),
(https:llwww.intechopen.com/bookslgeneticdisordersl'the-genel ics· of-mental-retardation)12 James W. Ell is et aL set out the following in their Hofstra
Law Review article, ..Eva/11atillg Intellectual Disability:
Clinical A,vsessments in Atkins Cases, ··to wit

onset requirement in Atkins cases appears to involve
the definition's requirement that the disability must have
"originated" or "manifested" during the developmental
period of life_ The definition does not require that there
have been IQ tests or formal assessments of adaptive
deficits while the individual was a child. Whether a person
had received such testing or diagnostic services as a
child is, of course, a matter of happenstance, with no
relevance to questions of culpability. Educational policy
choices, even routine bureaucratic decisions, may play a
part in determining whether a child is tested and properly
diagnosed as having intellectual disability.

The final component of the definition of intellectual
disability is the stipulation that the disability must have
originated during the developmental period of life. This
requirement has proven to present the fewest *865
issues for diagnosticians in Atkins cases, and few cases
have turned on this prong. The vast majority of people
with the level of intellectual impairment to satisfy the
first prong of the definition- and the deficits in adaptive
behavior to satisfy the second prong- first experienced

If a defendant currently meets the [other] two criteria I 4 l ,
and there are indications of impairment, delayed
development, etc., from childhood, and if there is no

their disability in childhood, and for some, the cause
can be traced back to their birth or their genetic make-

indication that the impairment resulted from causes that
occurred in adulthood, a diagnosis of intellectual disability

up. The only individuals who are excluded from the
category by the age of onset requirement are individuals
whose disability can be traced to events during adulthood.
Examples would include individuals whose neurocognitive
impairments occurred post-adolescence as with dementia,
or brain injuries due to post-adolescence accidents. But
for diagnostic purposes, adult-onset impairments can be
identified and distinguished from intellectual disability.

is appropriate, and constitutionally compelled.
James W. Ellis et al., Evaluating /11tel/ect11a/ Disabibty :
Clinical Assessments in Atkins Cases, 46 Hofstra L. Rev.
1305, 1336-39 (2018) (footnotes omitted).

4

As laid out in 21 O.S.2011, § 70 l. lOb(C),
the other two criteria that the defendant must

WESTLAW © 2021 Thomson Reuters No claim too 1g1t1a J.S Goverrrnent Works

36

Nolen v. State, 485 P.3d 829 (2021)

2021OKCR5

meet are (I) intellectual disability by showing
significantly subaverage general intellectual
functioning (i.e. an IQ score of 70 or below
on an individually administered, scientifically
recognized standardized intelligence quotient
test administered by a licensed psychiatrist or
psychologist) and (2) significant limitations in
adaptive functioning.

a sub-average intelligence will qualify for the exemption.
This is so when each of the three requirements cannot be
met. Each is separate and distinct, but build on one another
to determine at the end if a defendant is or is not eligible
for the death penalty under the Eighth Amendment. As set
out in Part II, above, there are ways to put forth evidence,
even without an IQ test, that a person is suffering from
mental retardation/intellectually disability which existed and
was manifest before age 18. However, Appellant in this case
has failed to do so.

Ill.

Application of Legal and Medical
Requirements to the Evidence in this Case.
~13

Turning now to the facts in this case, I apply the law and
medical criteria set out above. First, Appellant does have an
IQ test that shows his current IQ is 69, albeit, this test was
conducted some two years after the crime and its validity is
questionable due to the manner in which it was administered.
The question of the test validity goes to the weight and
credibility the jury may have given it.
~14

Second, there is no evidence that whatever Appellant's
intelligence level might be, it was manifested before age 18.
No intellectual functioning tests were administered before age
18. This fact requires us to look at other evidence, as described
above, to indicate the onset of his level of functioning was
manifest before age 18.
115 Appellant progressed through his public education
without being placed in any special education programs.
While he was assigned to the alternative school at one point,
the evidence does not indicate it was due to any intellectual
disability. His grades over this span, while up and down at
times, do not reveal any consistent intellectual problems. His
sister testified Appellant could read and did so often; however,
he did not like to read out loud. The record is void of any
evidence that he was the victim of any accident that could
be attributed as a cause of any intellectual disability. Thus,
this record lacks an evidentiary base to establish whatever
Appellant's intellectual status is, it did not manifest itself
before age 18.
~ 16 This

failure to establish any intellectual disability prior to
age 18 answers the question of whether Appellant qualifies
as *866 mentally retarded/intellectually disabled under
Atkins and is exempt from the death penalty. In
Atkins,
the Supreme Court recognized that not all individuals with

, 17 Third, even ifthis Court examined the record to determine
if Appellant has proved significant limitations, in at least two
areas of adaptive functioning he fails. Appellant graduated
from high school and attended college. He even received an
A grade in a college psychology course. He was gainfully
employed, having held the job at Vaughn Foods for over a year
before the commission of the crimes in this case. Appellant
lived independently, drove a car, participated in personal
socializing by going to the mosque, and used technology.
118 In summary, I find Appellant has failed to show by a
preponderance of the evidence that he is mentally retarded/
intellectually disabled as required under
Atkins and 21
O.S. § 70 I. I 0. Under the law and the evidence, he is eligible
for the death penalty and the evidence is sufficient to affirm
the verdicts and sentences rendered by the jury and the
District Court of Cleveland County.

IV.
Conclusion
,19 It is for the above reasons that I believe the qualification
for exemption from the death penalty due to mental
retardation/intellectual disability is a three-step process: (I)
sub-average intellectual functioning; (2) manifested before
the age 18 (as set out above); and (3) is additionally
accompanied by significant limitations in two or more
adaptive functions as set out in § 701 .1Ob. As the Supreme
Court referenced in the cited materials in

Atkins, as well as

this Court's analysis in 9111 M1117,hy and Fuston v. State, 2020
OK CR 4, ~, 15-38, 4 70 P.3d 306, 315-318, the establishment
of the first prong of sub-average intellectual functioning
is separate and apart from the third prong of significant
limitations in two or more adaptive functions. Therefore, if

WESTLAW © 2021 Thomso•' Re..iters. No cia1~ to orig 1k1I U S Governr'ent 'Norks.

37

Nolen v. State, 485 P.3d 829 (20 21)
2021 OK CR 5
-----------------a defendant cannot establish the first prong of sub-average
intellectual functioning, then there is no need to move onto
the third prong of significant limitations in two or more
adaptive functions. While each of the three prongs work
together to ultimately decide the issue of whether Eighth
Amendment MR/ID has been established, one prong alone
does not define the other. We should be consistent with this
Court's interpretation of

Atkins. • Murphy. and Fuston.

LEWIS, JUDGE, SPECIALLY CONCURRING:
~I

I concur in the denial of relief, and write separately on
the proper limitations of voil· dire. A trial court may properly
exercise its discretion to limit voir dire into specific factual

hypotheticals about a party's theory of defense.
Black \'
State, 2001 OK CR 5, ~ 19, 21 P.3d l047, 1058 (limiting voir
dire concerning hypotheticals grounded in facts of the case).
End of Document

~

However, in cases of this gravity, the court should permit

a generalized inquiry about prospective jurors' opinions,
conceptions, beliefs, or potential biases about a legal or
factual defense having likely application to the case. Such
inquiry provides information relevant to potential challenges
for cause and intelligent use of peremptories.
~3

The court need not indulge an inquisition, and may d irect
counsel to come to the point, but it should not arbitrarily cutoff voir dire about a legal or factual defense. A few thoughtful
questions may show a juror is either too biased to serve in the
case or should be removed by peremptory challenge.

All Citations
485 P.3d 829, 2021 OK CR 5

2021 Thomson Reuters. No claim lo original U.S. Go•1ernment Works.

WESTLAW © 202 1 fhomson Reuter,.;. Ne cla1""'I to ong nal US. Government 1Nori<..s.

38

